<html>
<title> - INTEOPERABLE EMERGENCY COMMUNICATIONS: DOES THE NATIONAL BROADBAND PLAN MEET THE NEEDS OF FRIST RESPONDERS?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
  INTEROPERABLE EMERGENCY COMMUNICATIONS: DOES THE NATIONAL BROADBAND 

                PLAN MEET THE NEEDS OF FIRST RESPONDERS?

=======================================================================


                                HEARING

                               before the

               SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS,

                       PREPAREDNESS, AND RESPONSE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 27, 2010

                               __________

                           Serial No. 111-77

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________






                  U.S. GOVERNMENT PRINTING OFFICE
66-027                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Daniel E. Lungren, California
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
    Columbia                         Michael T. McCaul, Texas
Zoe Lofgren, California              Charles W. Dent, Pennsylvania
Sheila Jackson Lee, Texas            Gus M. Bilirakis, Florida
Henry Cuellar, Texas                 Paul C. Broun, Georgia
Christopher P. Carney, Pennsylvania  Candice S. Miller, Michigan
Yvette D. Clarke, New York           Pete Olson, Texas
Laura Richardson, California         Anh ``Joseph'' Cao, Louisiana
Ann Kirkpatrick, Arizona             Steve Austria, Ohio
Bill Pascrell, Jr., New Jersey       Tom Graves, Georgia
Emanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, Connecticut
Mary Jo Kilroy, Ohio
Dina Titus, Nevada
William L. Owens, New York
Vacancy
Vacancy
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS, PREPAREDNESS, AND RESPONSE

                Laura Richardson, California, Chairwoman
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
    Columbia                         Pete Olson, Texas
Henry Cuellar, Texas                 Anh ``Joseph'' Cao, Louisiana
Bill Pascrell, Jr., New Jersey       Michael T. McCaul, Texas
Emmanuel Cleaver, Missouri           Peter T. King, New York (ex 
Dina Titus, Nevada                       officio)
William L. Owens, New York
Bennie G. Thompson, Mississippi (ex 
    officio)
                      Stephen Vina, Staff Director
                          Ryan Caldwell, Clerk
               Amanda Halpern, Minority Subcommittee Lead



                            C O N T E N T S




                               ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Laura Richardson, a Representative in Congress From 
  the State of California, and Chairwoman, Subcommittee on 
  Emergency Communications, Preparedness, and Response...........     1
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Ranking Member, Subcommittee on Emergency 
  Communications, Preparedness, and Response.....................     3

                                PANEL I
                               Witnesses

Rear Admiral James Arden Barnett, Jr. (Ret.), Chief, Public 
  Safety and Homeland Security Bureau, Federal Communications 
  Commission:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
Mr. Gregory Schaffer, Assistant Secretary, Office of Cyber 
  Security and Communications, Department of Homeland Security:
  Oral Statement.................................................    11
  Prepared Statement.............................................    13

                                PANEL II
                               Witnesses

Chief Jeffrey D. Johnson, President and Chairman of the Board, 
  International Association of Fire Chiefs:
  Oral Statement.................................................    30
  Prepared Statement.............................................    32
Deputy Chief Charles F. Dowd, Communications Division, New York 
  City Police Department:
  Oral Statement.................................................    33
  Prepared Statement.............................................    36
Mr. Robert A. Legrande, II, Founder, The Digital Decision, LLC:
  Oral Statement.................................................    37
  Prepared Statement.............................................    40
Mr. Eric Graham, Rural Cellular Association, Vice President for 
  Strategic and Government Relations, Cellular South, Inc.:
  Oral Statement.................................................    43
  Prepared Statement.............................................    44

                             FOR THE RECORD

The Honorable Laura Richardson, a Representative in Congress From 
  the State of California, and Chairwoman, Subcommittee on 
  Emergency Communications, Preparedness, and Response:
  Statement Submitted by the Fraternal Order of Police...........    20
Response Submitted by Chief Jeff Johnson and Deputy Chief Charles 
  F. Dowd........................................................    59

                               APPENDIX I

Response Submitted by Rear Admiral James Arden Barnett, Jr.......    63

                              APPENDIX II

Questions From Chairman Bennie G. Thompson of Mississippi for 
  James Arden Barnett, Jr........................................    79
Question From Honorable Dina Titus of Nevada for James Arden 
  Barnett, Jr....................................................    80
Questions From Chairman Bennie G. Thompson of Mississippi for 
  Gregory Schaffer...............................................    81
Question From Honorable Dina Titus of Nevada for for Gregory 
  Schaffer.......................................................    83
Questions From Chairman Bennie G. Thompson of Mississippi for 
  Robert A. LeGrande, II.........................................    84
Questions From Chairman Bennie G. Thompson of Mississippi for 
  Eric Graham....................................................    91


  INTEROPERABLE EMERGENCY COMMUNICATIONS: DOES THE NATIONAL BROADBAND 
                PLAN MEET THE NEEDS OF FIRST RESPONDERS?

                              ----------                              


                         Tuesday, July 27, 2010

             U.S. House of Representatives,
                    Committee on Homeland Security,
   Subcommittee on Emergency Communications, Preparedness, 
                                              and Response,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 311, Cannon House Office Building, Hon. Laura Richardson 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Richardson, Cleaver, and Rogers.
    Ms. Richardson [presiding]. Well, good morning to everyone. 
Thank you for being here. The Subcommittee on the Emergency 
Communications Preparedness and Response will come to order. 
The subcommittee meeting today is to receive testimony on the 
``Interoperable and Emergency Communications: Does the National 
Broadband Plan Meet the Needs of First Responders?''
    I will now recognize myself for an opening statement. Good 
morning to all of you. I would like to welcome our witnesses 
here today, and for those of you who serve this country we are 
very grateful for the service that you provide.
    Today we will be discussing the broadband's plan and 
recommendation for building a Nation-wide, interoperable, 
public safety communications network.
    Now, for the record I will disclose, as I said to the 
gentlemen who serve this Nation, I served as a police cadet 
while I was going through school, and I have family, ex-family 
who is very involved from a public safety perspective. So this 
issue is very important.
    It is important to ensure when we talk about safety we are 
actually talking about their lives, not only for the public but 
actually for the men and women who serve us. So in that sense 
to me this is a very strong priority.
    This broadband network would be able to one, support and 
exchange large amounts of data, including photos and video. It 
would allow first responders to easily communicate across 
agencies and jurisdictions. Ultimately, it would usher in a new 
generation of emergency response.
    The need for a Nation-wide broadband network was first 
really brought to, I think, an alarming point when we had the 
experience after 9/11 and also with our now soon-to-be 5-year 
anniversary of Hurricane Katrina.
    In both disasters, response operations were severely 
hampered because public safety was unable to communicate 
effectively with one other. But today, nearly 10 years later, 
after the worst terrorist attack on U.S. soil, we are still 
waiting. I must say as Chairwoman of this committee it is very 
disappointing.
    The FCC's National Broadband Plan provides for a strategy 
for reaching this goal by auctioning the 10 megahertz of 
spectrum known as D Block to commercial interests as 
establishing a public-private partnership for its use.
    The administration has also weighed in by their memorandum 
dated on June 28, establishing a 10-year process to add 500 
megahertz to the commercial sector, and thereby hopefully 
providing enough funding to establish an interoperable wireless 
broadband network for public safety.
    While we know much time and effort has gone into this plan, 
we still have questions about whether it is the best solution 
for homeland security. The plan contends that the public safety 
would be able to leverage commercial innovation, economies of 
scale, and additional spectrum via priority access and roaming 
agreements on commercial networks.
    These are promising attributes, but the subcommittee needs 
more assurances, and I would say that the public safety 
community does as well, needs more assurances that these 
features will provide adequate resources and capacity for 
public safety to meet its mission critical needs.
    The reality on the ground for first responders requires 
that they have a dependable communications system that will 
work under the worst circumstances every single time.
    We look forward to hearing from all of our witnesses 
whether you believe the National Broadband Plan would provide 
that dependable communications network.
    Additionally, there are several involvements that 
absolutely must occur. No. 1, fully engage the Department of 
Homeland Security and No. 2, full involvement by our public 
safety community.
    Further, we want to know how the FCC analyzed public 
safety's spectrum use and they overall needs, because they have 
certainly made it known that they require more spectrum.
    With the large number of public safety organizations 
opposed to the D Block auction, we are also interested in the 
efforts taken by the FCC to work with the public safety during 
the development of the proposed auction plan.
    Clearly, there has been a disconnect, and public safety in 
some respects seems to be out on the outside where normally we 
need them with us on the inside. This is not a role that should 
be ignored or avoided in any circumstance.
    I believe DHS with its close interactions with the public 
safety community could definitely help to bridge the gap. I 
look forward to hearing how the Assistant Secretary Schaffer's 
office will take steps to engage first responders and to make 
sure that the emergency communications is a larger priority at 
the department.
    We expect that the Office of Emergency Communications at 
DHS and its Emergency Communications Preparedness Center to 
play a more prominent role in developing interoperable 
communications.
    In addition to the administration, we also wanted to make 
sure that we heard directly from the public safety community 
itself. We are grateful to have several representatives with us 
on the second panel and we appreciate your on-going service.
    We want to gain a better understanding of your proposal to 
reallocate the D Block to public safety and how you intend to 
fund the build-out and the sustainment of this needed network.
    Whether the D Block is auctioned or directly allocated to 
public safety, there must be a plan in place to pay for the 
system, as well as the new hardware that must be purchased by 
cash-strapped localities.
    Oftentimes, rural communities have the most trouble finding 
resources to roll out these initiatives, so we appreciate Mr. 
Graham from the Rural Cellular Association being here to 
provide his perspective.
    Ultimately, when we talk about pursuing a Nation-wide 
interoperable public safety network, no side can do it alone. 
There must be a collaborative approach that leverages the 
expertise and the resources of all involved, public safety, 
commercial providers, and the government.
    I look forward to hearing from all of our witnesses on how 
we can finally achieve this requirement that was required of us 
10 years ago.
    The Chairwoman now recognizes the Ranking Member from the 
subcommittee, the gentleman from Alabama, Mr. Rogers, for an 
opening statement.
    Mr. Rogers. I would like to thank the Chairwoman, and I 
want to thank the witnesses, both on our first panel and the 
second panel for being here and for the time it took to prepare 
for this hearing. It is a great help to us, and I really 
appreciate your efforts and with that I will get started.
    Let me first start by applauding the efforts of the FCC in 
crafting a very detailed and comprehensive National Broadband 
Plan. This plan is the blueprint for the future development of 
our Nation's high-speed internet, improved communications tools 
for first responders, upgraded E911 public safety answering 
points and a next generation alert and warning systems.
    With that being said, I believe that more can be done in 
the plan to support our Nation's first responders. For example, 
in Chapter 16 of the plan, the FCC is called upon to ``quickly 
license the D Block for commercial use.'' I believe that this 
is the wrong decision and instead the D Block spectrum should 
be reallocated to public safety.
    I am an original co-sponsor of the bipartisan bill H.R. 
5081, the Broadband First Responders Act of 2010, which was 
introduced by the Ranking Member of the full committee, Mr. 
King. This legislation would reallocate the D Block currently 
set aside for auction to public safety. This bill has over 60 
co-sponsors here in the House and that number continues to 
grow.
    Last week Senators Lieberman and McCain introduced a Senate 
companion bill. Their efforts should be applauded and supported 
so that we might enact this vital legislation and in turn 
continue to provide public safety with the resources they 
require.
    Finally, I would like to hear from today's witnesses about 
any updates to the National Emergency Communications Plan. The 
NECP provides recommendations and milestones for emergency 
responders, relevant Government officials and Congress to 
approve emergency communication capabilities. The first NECP 
was released in July 2008, and I understand that the Department 
is now working on a 2.0 version.
    I would like to hear from our witnesses on where we stand 
on this updated version of the NECP and whether the FCC and DHS 
cooperated with one another so that the objectives of the 
National Broadband Plan match the goals of DHS NECP which is 
required to set National goals and priorities for addressing 
deficiencies in the National emergency communications posture.
    With that, I would once again want to thank the witnesses 
for being here, and I yield the balance of my time.
    Ms. Richardson. Other Members of the subcommittee are 
reminded that under the committee rules opening statements may 
be submitted for the record. Thank you, Mr. Cleaver, for 
joining us this morning.
    I welcome our first panel of witnesses. Our first witness, 
Rear Admiral, Retired James Arden Barnett, Jr., is the chief of 
Public Safety and Homeland Security Bureau at the Federal 
Communications Commission.
    He is responsible for overseeing the FCC's activities 
pertaining to public safety, homeland security, emergency 
management and disaster preparedness, and represents the 
commission on these issues before the Federal, State, and 
industry organizations. Admiral Barnett served 32 years in the 
United States Navy and the Navy Reserve, retiring in 2008.
    Our second witness, Mr. Greg Schaffer, was appointed 
assistant secretary for Cyber Security and Communications on 
June 1, 2009 by Secretary Napolitano. In this position, Mr. 
Schaffer is responsible for enhancing the security, the 
resiliency, and the reliability of the Nation's fiber and 
communications infrastructure.
    Prior to joining the Department of Homeland Security, Mr. 
Schaffer served as senior vice president and chief risk officer 
for Alltel Communications. We are pleased to have you both 
present and greatly appreciate your testimony today.
    Without objection, the witnesses' full statements will be 
inserted into the record, and I now ask each witness to 
summarize his statement for 5 minutes, beginning with Admiral 
Barnett.

  STATEMENT OF REAR ADMIRAL JAMES ARDEN BARNETT, JR. (RET.), 
  CHIEF, PUBLIC SAFETY AND HOMELAND SECURITY BUREAU, FEDERAL 
                   COMMUNICATIONS COMMISSION

    Admiral Barnett. Good morning, Chairwoman Richardson, 
Ranking Member Rogers and Members of the subcommittee. Thank 
you for the opportunity to speak to you today about the 
implementation of the National Broadband Plans' recommendations 
can provide a state-of-the-art, affordable, interoperable, 
wireless broadband network for our Nation's first responders.
    Such an interoperable network is not inevitable. To achieve 
interoperability we must have a comprehensive, well-researched, 
and affordable plan. Though there has been progress, every 
disaster since 9/11 reminds us of the interoperability problems 
with the current public safety voice networks, which are 
hamstrung by outdated, by proprietary technologies.
    However, today we have a technological clean slate for a 
very brief period of time to ensure public safety has the 
Nation-wide interoperable broadband network it requires. That 
technological clean slate is the impending construction of the 
commercial 4G broadband networks. We can afford it if we act 
now.
    We can reach 99 percent of the population from densely 
populated cities to the most rural counties. After months of 
expert analysis, research, and public safety input, the 
National Broadband Plan recommends an innovative approach to 
solve the 9/11 interoperability problem, an approach applauded 
by the former chair and vice chair of the 9/11 Commission.
    The core of the network is the 10 megahertz that Congress 
has already dedicated to public safety, and it is the one that 
is located immediately adjacent to the D Block. As a result of 
incredible advances in cellular architecture and LTE 
technology, 10 megahertz can perform like 160 megahertz would 
on the current public safety voice networks.
    We have outlined these developments in a recently released 
white paper which demonstrates that this will provide enough 
capacity for day-to-day public safety operations in most 
emergencies. But we must plan for the worst emergencies, the 
next 9/11. In that situation, even an additional 10 megahertz, 
like the D Block, will likely not be enough.
    The FCC plan calls for public safety to have the ability to 
have priority access and roaming to commercial networks, so 
first-in-line privileges on up to 60 or 70 additional 
megahertz.
    This feature has an additional advantage that reallocating 
the D Block alone does not. It can provide immediate resiliency 
and redundancy if the public safety network goes down, such as 
happened in the District of Columbia in March of this year.
    We created an in-depth cost model which shows the way to 
afford 99 percent coverage, population coverage to the network, 
and to ensure technical interoperability we have already 
established the Emergency Response Interoperability Center, or 
ERIC, with public safety, the Department of Homeland Security, 
Department of Justice and other Federal partners to ensure that 
interoperability is truly effective.
    The FCC plan draws greatly on the input that we received 
from public safety and on much of the plan we agree with public 
safety. We agree on LTE technology, on the priority access and 
roaming, on the interoperability center, on the need for public 
funding, on parting the network, on coverage in rural areas and 
the need for consumer priced ruggedized devices.
    The one major area of disagreement is whether the D Block 
should be reallocated. Reallocation is an option that the FCC 
examined thoroughly. Our research, however, raised several 
concerns if the D Block is simply reallocated D Block. Our data 
suggests that reallocation of the D Block could greatly 
increase the cost of construction of the network, perhaps by as 
much as $9 billion over a 10-year period.
    Postponing a decision on D Block is not a good option 
either, since missing the deployment of the commercial 4G 
network will greatly increase the construction cost also. 
Simply reallocation of the D Block is likely to increase the 
cost of operating, maintaining, and upgrading the network.
    Reallocation would prohibit economies of scale, making the 
devices and equipment more expensive for public safety, just as 
it is now with its voice networks. Without sufficient funding, 
reallocation could impact the ability of rural areas and 
underfunded cities and counties to afford to build and operate 
the network. If the network is not Nation-wide it is not 
interoperable.
    Clearly, the ultimate decision of how we proceed is in your 
hands. The commission remains committed to working closely with 
all stakeholders, with public safety, industry, and Members of 
Congress to achieve our shared goal of a Nation-wide 
interoperable network.
    Our aim is to provide you with the FCC's insight and 
expertise and to present what we view as the greatest 
challenges to realizing this essential network. We must not 
miss this crucial moment to solve the 9/11 interoperability 
problem and provide public safety broadband coverage to the 
entire Nation. Thank you.
    [The statement of Admiral Barnett follows:]
             Prepared Statement of James Arden Barnett, Jr.
                             July 27, 2010
    Good morning Chairwoman Richardson, Ranking Member Rogers, and 
Members of the subcommittee. I appreciate this opportunity to appear 
before you today on this issue of National importance.
    Over the past decade, this Nation has endured man-made and natural 
disasters that have tested our mettle, our resiliency, and our resolve. 
The attacks of September 11, 2001, were some of the most horrific 
events in our Nation's history. Hurricanes Katrina and Rita, the 
Midwest floods, the Kentucky ice storms, the California wildfires and 
countless other natural disasters have taxed our resources, our 
disaster planning and response, and our public safety personnel. The 
communications failures that occurred during and after these events 
cost the lives and livelihoods of our citizens, and of many brave men 
and women in uniform.
    In the wake of these events, we became smarter about why these 
communications failures occurred, and what can be done to better 
prepare our physical communications networks and governance protocols 
to work more effectively during a crisis. The Department of Homeland 
Security, the National Telecommunications and Information 
Administration, the Department of Justice, the FCC and others have 
worked hand-in-hand with the public safety community to examine our 
legacy public safety networks, and to put in place the legal, 
regulatory, governance, and technical rules that will facilitate 
interoperability and survivability.
    The fact that we can look back on these events and show some 
progress speaks to the dedication of our Nation's emergency personnel, 
and of the agencies that work to solve these problems. But make no 
mistake; this progress has been very slow, and those on the front lines 
of America's emergency response continue to lack access to basic 
communications tools that many commercial consumers take for granted. 
Our Nation's legacy narrowband voice public safety communications 
networks remain hamstrung by outdated, proprietary technologies that 
were not designed to work together, as well as a public safety network 
construction mindset that values control over coordination, and relies 
on local projects and local funding, which are often inconsistent or 
nonexistent.
    But the communications landscape is undergoing a sea change--a 
shift to advanced 4G wireless broadband technologies like Long Term 
Evolution (LTE) that have the potential to revolutionize the way public 
safety communicates and executes its critical mission, from the big 
city cop on the beat to the small-town volunteer fire fighter to the 
suburban emergency medical technician. If, however, public safety is 
going to ride the wave of this technological roll out, we have a 
limited opportunity to act.
    If we act at the very inception of 4G technology, and employ an 
inclusive, well-reasoned, and achievable plan for deploying--and 
funding--a 4G public safety wireless broadband network, we can reach at 
least 99 percent of the population and catch the technological wave as 
commercial 4G networks are built. Otherwise, America runs the risk of 
not being able to afford a Nation-wide, interoperable public safety 
network and it will never be deployed.
    As the images of 9/11 fade from our everyday consciousness, I am 
concerned that we may have lost the urgency to act. But as we approach 
the ninth anniversary of those events, I am here today to explain why 
we must regain that urgency, that drive to act, and why the FCC's 
National Broadband Plan recommendations are a comprehensive solution to 
the communications problems highlighted by all of this and other recent 
National tragedies.
          the national broadband plan's comprehensive approach
    The approach that the FCC recommended in the National Broadband 
Plan, which was developed with significant public input from all 
quarters, provides a realistic, achievable roadmap to successful 
deployment and operation of this system. Indeed, the vast majority of 
the plan enjoys broad support from across the public safety community, 
industry, and others. For example, there is broad general agreement on 
the need for:
  <bullet> The adoption of new, common open-standard LTE technology;
  <bullet> Priority access for public safety on commercial networks;
  <bullet> The ability to roam onto commercial networks and other 
        public safety networks;
  <bullet> An emergency response interoperability center, to ensure 
        interoperability across the network; and
  <bullet> Consumer-priced device components that ``see'' the relevant 
        bands, are ``ruggedized'' for public safety, and 
        correspondingly priced network equipment.
    We also all agree that the public safety network should not be an 
isolated technological island, so that it can continue to evolve, on a 
cost-effective basis, as commercial technology improvements are made. 
Members of the public safety community agree that there needs to be 
sufficient public funding for the network to ensure that it is built, 
that it is hardened, and that it extends to rural areas.
    The one area where we have witnessed disagreement is the amount of 
spectrum that should be allocated to public safety to make the network 
fully functional. There are many in the public safety community that 
would like the 10 MHz of the D Block added to the 24 MHz of spectrum 
already dedicated to public safety in the beachfront 700 MHz band. 
Others believe that auctioning the spectrum to commercial licensees is 
the better approach. During the preparation of the Plan, we examined 
both sides, and sought the best advice from engineers, economists, 
policymakers, and a wide array of wireless providers and manufacturers 
seeking to partner with public safety to bring 4G technologies to all 
parts of the country.
    From this input, we were able to develop a list of attributes that 
the public safety broadband network must include:
    (1) Nation-wide.--The network must provide coverage for public 
        safety to everywhere, with the eventual goal of 99% coverage of 
        the population.
    (2) Interoperable.--The network must interoperate across all 
        geographies and public safety agencies.
    (3) Capacity and Performance.--The network must have the capacity 
        and performance to reliably support public safety day-to-day 
        and on an emergency basis, as well as provide contingencies for 
        operations during the worst disasters, through hardening and 
        opportunities for access to redundant networks.
    (4) Cost-effective.--The network and its devices must be affordable 
        to deploy, operate, utilize, and upgrade.
    (5) Technologically advanced.--The network must utilize the latest 
        technology and with cost-effective technological evolution 
        built in. Public safety cannot be trapped in expensive, out-
        dated old technologies that cannot be upgraded without 
        considerable expense and that threaten interoperability.
    In the past, we have raised concerns about plans to simply 
reallocate the D Block for public safety use. Taken by itself, such 
reallocation will likely fail to:
    (1) Fund network build out and operations;
    (2) Make it affordable for public safety to use, maintain, and 
        upgrade, allowing public safety to benefit from continued 
        innovation;
    (3) Provide operability and coverage in all parts of the country;
    (4) Promote interoperability;
    (5) Provide sufficient capacity for the worst emergencies; and
    (6) Provide for build out in the near term.
    Therefore, regardless of how much spectrum the public safety 
network employs, there are vital issues that need to be considered 
apart from the basic question of reallocation. I will address each of 
these considerations in turn.
            funding network build out throughout the country
    The National Broadband Plan recognizes that without a comprehensive 
public funding mechanism for both capital and operating expenses, an 
interoperable broadband network will be unaffordable for significant 
portions of the country, and particularly for rural America. Our cost 
model demonstrates under an incentive-based partnership approach, which 
fully leverages commercial technologies and infrastructure and covers 
99 percent of the U.S. population, capital expenses for a fully 
hardened network will cost approximately $6.5 billion over 10 years. 
Operating expenses for this network will cost for the same 10-year 
period between $6 and $10 billion. With this funding in place and based 
on the FCC's roadmap, nearly all Americans, regardless of where they 
live, will be covered by a Nation-wide, interoperable public safety 
broadband network when an emergency strikes.
    Conversely, simply reallocating the D Block to public safety will 
not provide funding for network deployment or operations. It has been 
suggested that public safety could ``self fund'' network build out, 
either through traditional local funding methods or by leasing excess 
spectrum capacity to others. With respect to the former, as we have 
seen, traditional local funding methods are unreliable, inconsistent, 
and subject to tremendous variation depending on the relative resources 
of the local community. This approach threatens to create a patchwork 
of ``haves'' and ``have nots,'' with many small and rural communities 
left out. And when times get tough, as we have seen from the diversion 
of funds in the E-9-1-1 context, local monies slated for public safety 
can be diverted or eliminated in order to meet budgeting constraints. 
In an environment where local communities must lay off or furlough 
public safety personnel, the prospect of identifying local funding for 
broadband network construction is grim.
    With respect to the prospect of public safety becoming a spectrum 
broker for secondary access, nothing in our record demonstrates that 
enough revenue could be generated to meet capital and operating 
expenses of the network. The likely result is that public safety would 
have no choice but to build fewer towers in rural areas to save money, 
or simply would not build at all. Moreover, when the FCC attempted to 
broker a mandatory partnership with significant public safety 
obligations on the designated commercial provider, there were no 
buyers. Thus, if the D Block were to be reallocated to public safety, 
we have no assurance that any potential buyers would be willing to pay 
sufficient leasing fees to fund a viable Nation-wide network. 
Sufficient public funding, with appropriate spending safeguards, is 
therefore imperative regardless of how much spectrum is involved.
  the need for network affordability and keeping pace with innovation
    The National Broadband Plan and supporting FCC White Papers 
demonstrate that capitalizing on the 4G deployment schedules of 
commercial carriers will be significantly less expensive than building 
a stand-alone public safety system. Under the FCC's plan public safety 
will have its own spectrum, its own network, and control over key 
operational components, but in most areas public safety can share 
infrastructure that already exists or is being supplemented by 
commercial service providers now. In this way, public safety will save 
approximately $9 billion for network construction and save potentially 
tens of billions in operating costs.
    Reallocating D Block will make it more difficult for public safety 
to enter into commercial partnerships that capture the economies of 
scale that commercial carriers enjoy by virtue of their larger customer 
bases. If public safety is unable to leverage the commercial 
marketplace, the cost of the public safety network could easily rise 
from approximately $6.5 billion for construction costs and 
approximately $8-10 billion in operating costs to an estimated combined 
total of $35-$48 billion over 10 years, a three to four times 
increase.\1\
---------------------------------------------------------------------------
    \1\ Federal Communications Commission, A Broadband Network Cost 
Model: A Basis for Public Funding Essential to Bringing Nationwide 
Interoperable Communications to America's First Responders, OBI 
Technical Paper No. 2, at 4-6 (May 2010), available at http://
www.fcc.gov/pshs/docs/ps-bb-cost-model.pdf (Cost Model).
---------------------------------------------------------------------------
    Reallocating the D Block therefore threatens to come at a price 
that may put the network out of reach for many communities. Moreover, 
if the D Block is reallocated, instead of taking 10 years it is more 
likely that Nation-wide network deployment will take 20 to 25 years, if 
it happens at all. Delaying deployment may also damage any ability to 
leverage commercial deployments now or in the future, and it will be 
more likely that Nation-wide interoperability will not be achieved in 
any reasonable amount of time. Further, the D Block and the public 
safety broadband spectrum make up what is called ``Band 14'' in the 700 
MHz band. Without a commercial carrier in Band 14, the pool of 
potential users in Band 14 is reduced dramatically, providing less 
incentive for equipment manufacturers to develop or upgrade products. 
Without the ability to capitalize on commercial research and 
development, and choose from a broad array of commercial equipment 
manufacturers, public safety users will be saddled with 
disproportionately high costs for communications equipment and handsets 
that are rapidly outdated and not readily replaceable. Once again, 
public safety will be left behind and simply providing more spectrum 
alone does not solve this concern.
       guaranteeing coverage in urban, suburban, and rural areas
    Under the National Broadband Plan, the FCC proposes a comprehensive 
cost and leveraged deployment strategy that will economically and 
expeditiously reach 99 percent of the population.
    If the D Block is reallocated, the increased expense of the network 
and user devices will make it more difficult to achieve Nation-wide 
coverage, and could leave portions of the country without access to 
these critical public safety communications services. In essence, these 
areas will be left behind with the vestiges of legacy, narrowband 
fragmented networks which encumber our Nation today. And it is most 
likely the rural and economically challenged areas of the country that 
will be stuck on the sidelines.
                     guaranteeing interoperability
    Another critical requirement for this network is to ensure that it 
is interoperable. This means that no matter the jurisdiction or the 
uniform, when a first responder picks up a radio he should be able to 
communicate with the right people and have the right information 
instantaneously.
    In April of this year the FCC took a dramatic step forward to 
ensure interoperability when we established the Emergency Response 
Interoperability Center or ERIC. ERIC's mission, with the help of 
experts from the Department of Homeland Security and our other Federal 
partners, is to develop technical requirements to ensure that the 700 
MHz public safety broadband wireless network will be fully operable and 
interoperable on a Nation-wide basis, both day-to-day and during times 
of emergency. The impact of ERIC is already being seen. This May, the 
FCC conditionally granted 21 waiver petitions for early deployment of 
regional, State, and local public safety broadband networks.\2\ In 
these initial grants, the FCC adopted baseline requirements as a first 
step towards to ensure Day 1 interoperability for the network. In June, 
we appointed twenty experienced, public safety practitioners to be 
members of ERIC's Technical Advisory Committee, and we are in the 
process of developing an additional advisory body with broader 
participation. Together with input from the public safety community and 
our Federal partners, the experience we gain with these initial 
deployments will be instrumental as the FCC adopts its final technical 
rules. As our recent actions demonstrate, the FCC is committed to 
ensuring that as deployment begins on this network, interoperability is 
fully achieved.
---------------------------------------------------------------------------
    \2\ These include the City of Boston; the City and County of San 
Francisco, City of Oakland, City of San Jose, CA; State of New Jersey; 
City of New York; City of San Antonio, TX on behalf of the San Antonio 
Urban Area Security Initiative Region; City of Chesapeake, VA; State of 
New Mexico; City of Charlotte, NC; State of New York; District of 
Colombia; County of Maui, County of Hawaii, County of Kauai, City and 
County of Honolulu, and the State of Hawaii; City of Seattle, WA; Adams 
County, CO Communications Center; City of Pembroke Pines, FL; Los 
Angeles Regional Interoperable Communications System; Iowa Statewide 
Interop. Comms. System Bd.; Calumet, Outagamie and Winnebago Counties, 
WI; Mississippi Wireless Communications Commission; City of Mesa, AZ 
and the TOPAZ Regional Wireless Cooperative; State of Oregon; and State 
of Alabama.
---------------------------------------------------------------------------
    And this work must continue, regardless of the amount of spectrum 
the public safety network uses. However, reallocating the D Block to 
public safety may make this work even more complex for several reasons. 
First, if the network is not Nation-wide, significant portions of the 
country would not be able to interoperate with each other. Second, 
without the ability to capitalize on a robust commercial equipment 
market using open standards, the potential for proprietary solutions 
and applications may also endanger interoperability. The use of 
proprietary equipment and standard are part of the reason 
interoperability has been elusive with our current narrowband public 
safety systems. So, regardless of how much spectrum is allocated to 
public safety, it is imperative that the FCC, with its Federal 
partners, continue our work through ERIC to ensure the public safety 
network does not begin on a flawed foundation.
             ensuring sufficient capacity on the worst days
    FCC engineers, experts, and technical staff have spent hundreds of 
hours performing engineering analysis to determine whether the 10 MHz 
of dedicated spectrum allocated to public safety will provide more than 
adequate capacity and performance for day-to-day and emergency 
communications. We have shown that a public safety network built on the 
10 MHz of dedicated spectrum supports these critical communications 
requirements.
    Network capacity and performance are affected by spectrum, but 
other important factors include the type of architecture employed, the 
number of cell sites in operation, the number of sectors per cell, 
sound network and spectrum management, and the specific technology that 
the network utilizes.\3\ By deploying advanced, 4G wireless 
technologies and cellular network architectures, public safety can 
achieve much greater capacity than they have achieved in the past. 
Indeed, moving from today's Land Mobile Radio (LMR) technology to LTE 
or even pre-LTE technologies could increase capacity per megahertz by a 
factor of 16.\4\ In fact, 10 megahertz of capacity on a cellular 
network would be the equivalent of 160 megahertz on an LMR-type 
network.\5\
---------------------------------------------------------------------------
    \3\ The Public Safety Nationwide Interoperable Broadband Network: A 
New Model for Capacity, Performance and Cost, at 5 (June 15, 2010), 
available at http://fjallfoss.fcc.gov/edocs_public/attachmatch/DOC-
298799A1.pdf (Capacity White Paper).
    \4\ Id. at 8.
    \5\ J.M. Peha, ``How America's Fragmented Approach to Public Safety 
Wastes Money and Spectrum,'' Telecommunications Policy, Vol. 31, No. 
10-11, 2007, p. 605-618.
---------------------------------------------------------------------------
    But we must also plan for the major disasters and emergencies that 
may challenge the public safety spectrum. To that end, the Plan 
recommended considering requiring commercial operators across the 700 
MHz band, and possibly other bands, to provide public safety with 
roaming and priority access on their networks at reasonable rates in 
times of critical need. In this respect, advanced 4G technologies like 
LTE employ more than a dozen levels of priority, which will allow 
public safety ``packets'' to bypass other packets of information. Like 
an ambulance with its sirens on, priority access will allow public 
safety to speed ahead of everyone else, who must slow down and pull to 
the side to provide public safety with the right of way. And under the 
FCC's proposal public safety would have access to nearly 70 MHz of 
additional spectrum in the 700 MHz band--far more than 10 MHz or 20 
MHz, either of which would be inadequate in the worst emergencies. 
Moreover, as technology evolves to allow priority roaming in other 
commercial bands, public safety could potentially have access to 
hundreds of megahertz--orders of magnitude greater than the alternative 
that has been proposed.
    Further, roaming and priority access will provide public safety 
with access to redundant networks in case their network is unavailable. 
If the FCC concept is employed, if necessary police, fire, and 
emergency medical communications could simply roam over onto public 
safety's choice of one or more commercial networks, with priority, and 
still continue their public safety work. This level of resiliency and 
redundancy has important benefits for public safety and for homeland 
security. Simply reallocating spectrum does not provide this level of 
redundancy; roaming and priority access are vital no matter what.
    There are additional pieces to ensure adequate capacity and 
performance recommended by the Plan. Our cost model recognizes and 
captures the need for deployable caches of communications equipments, 
such as cell towers on wheels, to supplement the network during the 
worst emergencies. We have also recommended that States and localities 
should include in their building codes requirements for the 
installation of in-building transmitters. This will ensure that 
communications is extended to deep within buildings.
    In our expert opinion, many these elements could be at risk if the 
D Block is simply reallocated to public safety. Ten megahertz of 
additional spectrum cannot provide public safety with the capacity it 
may require in the worst emergencies, or the redundancy and 
dependability of roaming and priority access on multiple commercial 
networks. Accordingly, pursuing roaming and priority access remain 
vital considerations for disaster planning irrespective of whether the 
core public safety network employs 10 or 20 megahertz.
            providing opportunities for immediate deployment
    Finally, let me end where I began--urgency. Regardless of whether 
or not the D Block is reallocated, if we delay too long in taking 
action, we lose the chance to capitalize on commercial 4G deployments; 
we lose the chance to save the country tens of billions of dollars; we 
lose the chance to bring this network to rural parts of the country; 
and we lose the chance to make this network a reality in the near term. 
These opportunities are available to us now, if we can muster the 
courage and the urgency to act.
                               conclusion
    Our mission is to ensure that public safety agencies in all areas 
of the country have the can successfully access an advanced, wireless 
broadband network. We have a singular opportunity to ensure that public 
safety has a Nation-wide interoperable broadband network. Our Plan 
carefully balances the input of all stakeholders, and takes advantage 
of this opportunity by offering a sustainable, long-term, cost-
efficient model that provides first responders with the state-of-the-
art, affordable, and interoperable broadband communications networks 
they deserve. We have one chance to solve the 9/11 interoperability 
problem and we must seize the opportunity while we can.
    Thank you for your time and attention. I am very happy to take any 
questions you may have.

    Ms. Richardson. Mr. Greg? I am sorry, Schaffer.

 STATEMENT OF GREGORY SCHAFFER, ASSISTANT SECRETARY, OFFICE OF 
   CYBER SECURITY AND COMMUNICATIONS, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Schaffer. That is all right. Chairwoman Richardson, 
Ranking Member Rogers and distinguished Members of the 
subcommittee, it is a pleasure to appear before you. As the 
assistant secretary for Cyber Security and Communications at 
DHS, I would like to lay out how my office supports the 
interoperable emergency communications needs of the Nation, 
including our role to date in moving forward regarding the 
FCC's National Broadband Plan.
    CS&C plays a central role in continuing the process of 
advancing emergency communications, including by actively 
participating and engaging with the FCC on issues surrounding 
the National public safety broadband network, and working with 
the Department of Justice as administration representatives to 
the Emergency Response Interoperability Center.
    DHS' goal is to make certain that all emergency responders 
have the capabilities needed to perform their essential 
missions, whether using today's communications infrastructures 
or emerging broadband technologies.
    Let me expand on that. Much of the debate that is going on 
right now revolves around the allocation of 10 megahertz of 
spectrum known as the D Block. However, the merits of building 
a National public safety broadband network are more complex 
than simply whether the D Block spectrum is allocated to public 
safety or auctioned to the private sector.
    In fact, the vast majority of what needs to be done in 
order to ensure that public safety has what it needs moving 
forward must be done regardless of the outcome of the D Block 
debate.
    We must begin to work on public safety standards for 
broadband networks, including known and anticipated data 
requirements. We must determine the technical and legal 
capabilities for priority access and roaming across the full 
range of the 700 megahertz spectrum. These efforts must be 
undertaken now, regardless of how the D Block issue is 
resolved. They are fundamental elements to successfully 
building the network.
    The Nation is at a critical juncture regarding the future 
of emergency communications. Broadband technologies have 
greatly expanded our expectations of what communications can 
deliver, with millions of Americans now routinely using text 
messaging, e-mail, location-based services and mobile video via 
smart phones and other devices, a trend that will only continue 
with the emerging technologies such as the 4G networks.
    These new technologies can be used to augment the existing 
land mobile radio solutions that public safety currently relies 
on to perform its vital mission, supporting rural jurisdictions 
and urban areas alike. The administration strongly supports the 
building of a National public safety broadband network, capable 
of meeting the mission requirements of public safety.
    Moreover, the administration is committed to helping fund 
this network through a dedicated funding stream. Of course, the 
FCC has been working on its plan for such a network for some 
time, and the administration is carefully evaluating their 
proposals. We are focused on a number of guiding principles as 
we go through that process.
    First, interoperability must be built into any network 
architecture proposal from the outset. We must avoid developing 
systems that are unable to interoperate without substantial 
investment in expensive add-on components as has often been 
necessary with land mobile radios.
    Second, coverage in both urban and rural areas and across 
the full range of the public safety mission space is essential. 
Firefighters, law enforcement officials, and EMTs must all 
benefit from broadband.
    Third, the solution must leverage commercial technologies. 
If public safety and commercial providers can leverage common 
infrastructure, chipsets, and base station technologies which 
also meet public safety requirements, all will benefit.
    Let me emphasize this point. The best solutions will 
leverage commercial technologies today and allow continued 
evolution of capabilities over time, ensuring access to 
cutting-edge solutions for the long term.
    The arguments for and against reallocation of the D Block 
are extremely complex, and any proposal must meet the needs of 
public safety and these three guiding principles.
    Before any decision on the FCC's proposal to auction the D 
Block and allow public safety priority access to roam on 
commercial networks in cases of emergency, several aspects need 
additional clarity.
    First, both the technical and legal aspects of the 
framework for priority access and roaming must be evaluated to 
ensure that priority can actually be given to public safety 
communications in a time of emergency at a price tag that they 
can afford.
    Second, the FCC's plan will necessitate sufficient funding 
to build out the infrastructure required for the network, and 
these costs must also be well-understood.
    Third, while any use of wireless broadband technology as a 
replacement for existing public safety mission critical voice 
traffic systems is years away, it is essential that significant 
efforts be taken now to solve critical technical challenges 
associated with public safety use of commercial networks.
    We need to gain clarity quickly on these important matters. 
One step toward doing so is the establishment of a public 
safety interoperability task force, including representatives 
from DHS, DOJ, and other Federal agencies, set up to better 
understand and identify public safety requirements and test 
assumptions.
    This is a once-in-a-generation opportunity to enhance 
public safety capabilities and save lives. We must get it 
right. I thank you for the opportunity to testify, and I would 
be happy to answer any questions you may have.
    [The statement of Mr. Schaffer follows:]
                 Prepared Statement of Gregory Schaffer
                             July 27, 2010
                              introduction
    Chairwoman Richardson, Ranking Member Rogers, and distinguished 
Members of the subcommittee, it is a pleasure to appear before you 
today to discuss the Department of Homeland Security's (DHS) emergency 
communications mission. Today I will outline DHS's responsibilities in 
emergency communications. I will also discuss our position on the 
development and deployment of a Nation-wide public safety broadband 
network including the allocation of the Upper 700 MHz Band D Block 
radio spectrum. Finally, I will outline the steps that DHS, in 
coordination with the Federal Communications Commission (FCC) and other 
Federal departments and agencies, has taken and plans to take to ensure 
that our Nation's emergency responders have the ability to communicate 
as needed, on demand, and as authorized at all levels of Government and 
across all disciplines.
    The Nation is at a critical juncture regarding the future of 
emergency communications. We have an opportunity to change the 
trajectory of how the United States responds to emergency events. 
Today, the needs of public safety users are being met by Land Mobile 
Radio (LMR) technologies, which are used across the Nation by Federal, 
State, local, and Tribal governments to provide the mission-critical 
voice capabilities used every day by firefighters, law enforcement 
officers, emergency medical technicians, and other first responders to 
protect and save lives. In a broadband world in which voice, video, and 
data are available to every smartphone user, voice communications--
while essential--are no longer sufficient to meet the needs of 
emergency responders. Public Safety also needs the data capabilities 
and efficiencies that newer technologies can provide.
    The planned deployment of new fourth generation, or 4G, mobile 
technologies by many commercial carriers over the next several years 
presents a historic window of opportunity to secure a range of high-
speed, cutting-edge, inherently interoperable capabilities for our 
Nation's public safety and emergency response community. These new 
technologies can be leveraged to augment the existing LMR solutions 
that the public safety community currently uses to perform its vital 
mission: Delivering a robust, operable, and interoperable Nation-wide 
public safety network. This improved network would support rural 
jurisdictions and urban areas alike, ensuring that all emergency 
responders have access to the new capabilities. If employed 
effectively, it will facilitate the development of new technologies 
tailored to public safety which could mean faster response times for 
ambulances and fire engines, as traffic-aware mapping systems guide 
responders around obstructions and along obscure roads and side 
streets, avoiding congested areas. Real-time video analysis could 
improve situational awareness and reduce risks to civilians. High-speed 
imaging transmissions could enhance the effectiveness of emergency 
medical treatment in remote locations, saving more lives. The 
possibilities, not unlike the demand for and use of applications on 
smartphones, for new life-saving solutions and inventions are 
unlimited.
    We support the vision of a National public safety broadband 
network, which leverages commercial technologies and applications, to 
meet public safety and emergency response requirements. Among the 
capabilities public safety needs are:
    (1) An infrastructure built to handle natural hazards;
    (2) Nation-wide interoperable coverage for all public safety 
        agencies;
    (3) Public safety-grade voice capability;
    (4) Robust data services;
    (5) Public Switched Telephone Network access;
    (6) Satellite services.
    These services raise complex issues, but we are committed to 
ensuring strong capabilities for vital public safety communications.
       overview of dhs emergency communications responsibilities
    Within the Office of Cybersecurity and Communications, I manage two 
organizations that focus on different but converging areas of 
telecommunications: The Office of Emergency Communications (OEC) and 
the National Communications System (NCS). OEC was established as part 
of the Congressional response to the communications challenges faced 
during the September 11, 2001 terrorist attacks and Hurricane Katrina 
in 2005. Created by Congress in 2006, OEC coordinates policy and 
assists in the development and implementation of interoperable and 
operable emergency communications capabilities for emergency responders 
at all levels of government--Federal, State, local, Tribal, and 
territorial. OEC provides more than 100 technical assistance visits to 
State and local partners each year and coordinates Federal interagency 
emergency communications activities across 14 partner agencies through 
the Emergency Communications Preparedness Center, and across all levels 
of government through the SAFECOM Executive Committee and Emergency 
Response Council. OEC also led the development of the National 
Emergency Communications Plan (NECP).
    The NCS, transferred from the Department of Defense to DHS in 2003, 
was created by Executive Order to support the telecommunications 
functions of the Executive Office of the President and all Federal 
departments and agencies for Continuity of Government, Enduring 
Constitutional Government, and Continuity of Operations. The NCS is an 
interagency system comprised of the telecommunications assets of 24 
Federal departments and agencies, each with significant operational, 
policy, regulatory, and enforcement responsibilities. The NCS 
coordinates telecommunications preparedness, response, and restoration 
activities across its 24 member agencies through the NCS Committee of 
Principals, which consists of senior Government officials from each of 
the 24 member agencies, ensuring a diverse representation across the 
NCS that includes the full range of Federal telecommunications assets. 
The NCS developed, manages, and administers priority communications 
services that take advantage of existing capabilities provided by the 
privately owned public switched network (PSN), yielding a cost-
effective emergency communications solution for Government and critical 
infrastructure emergency responders.
    If the PSN is damaged, degraded, or congested during times of 
emergency, crisis, or war, the NCS priority services allow senior 
Federal officials and first responders to complete their calls. These 
priority services are maintained in a constant state of readiness 
through the NCS's unique public/private partnership with the PSN 
providers. The NCS also administers an FCC mandate that prioritizes 
restoration of critical National security and emergency preparedness 
circuits if they are damaged or destroyed during disasters or 
emergencies. Under the National Response Framework, the NCS is the lead 
agency responsible for executing Emergency Support Function No. 2 
Communications. To ensure that effective and reliable communications 
exist to provide Continuity of Government, Enduring Constitutional 
Government, and Continuity of Operations, the NCS identified the 
minimum continuity communications requirements for all Federal 
departments and agencies, and tests the operational readiness of those 
capabilities every month.
    Both the OEC and the NCS are critical to shaping National policy, 
improving technological capabilities, and securing Federal Government 
support for a Nation-wide public safety broadband network. They work 
across DHS, Federal departments and agencies, multiple levels of 
government, and private industry to improve communications capabilities 
and achieve their mission requirements.
    In July 2008, OEC--working closely with our partners from all 
levels of government and the private sector--published the first 
National Emergency Communications Plan (NECP). The NECP established a 
clear operational vision for our Nation's emergency communications 
efforts--that emergency responders can communicate as needed, on 
demand, and as authorized, at all levels of government and across all 
disciplines. This vision is not technology-specific but encompasses all 
the wide range of different means and methods that emergency responders 
use to communicate. The NECP established three measurable goals, the 
first of which we are currently in the process of evaluating:
  <bullet> Goal 1.--By 2010, 90 percent of all high-risk urban areas 
        designated within the Urban Areas Security Initiative (UASI) 
        are able to demonstrate response-level emergency communications 
        within 1 hour for routine events involving multiple 
        jurisdictions and agencies.
  <bullet> Goal 2.--By 2011, 75 percent of non-UASI jurisdictions are 
        able to demonstrate response-level emergency communications 
        within 1 hour for routine events involving multiple 
        jurisdictions and agencies.
  <bullet> Goal 3.--By 2013, 75 percent of all jurisdictions are able 
        to demonstrate response-level emergency communications within 3 
        hours, in the event of a significant incident as outlined in 
        National planning scenarios.
    This month we held 10 evaluations of Goal 1 progress. By the end of 
October of this year, we will have evaluated the communications 
capabilities of the Nation's largest urban areas. Next year, we will 
expand upon this effort and evaluate Goal 2, coordinating with States 
to collect information at the county level and providing DHS with 
detailed performance and capability data from more than 3,000 local 
jurisdictions.
    Through OEC, DHS has placed heavy emphasis on communications 
capacity building at the State and local level. At the center of this 
effort has been support for the development of extensive governance 
structures--including strategic plans, governance bodies, and the 
identification of State-wide leadership--in order to strategically 
guide emergency communications investments in States and localities. 
Interoperability is not just about enabling technologies--it is as much 
about the people and processes necessary to use technology in an 
interoperable way.
    The investments we have made over the past several years in 
governance can be fully leveraged as new broadband technologies are 
integrated into the suite of solutions that will be used by the public 
safety community in the future. Today each of the Nation's 56 States 
and territories has Statewide Communications Interoperability Plans and 
Statewide Interoperability Governing Bodies to guide their efforts to 
improve emergency communications capabilities across their States. In 
addition, 44 States have hired full-time Statewide Interoperability 
Coordinators to lead the effort to build interoperable emergency 
communications networks. These planning structures, people, and 
processes, are the crucial building blocks necessary to successfully 
integrate broadband communications networks into the overarching 
emergency communications enterprise. In many ways, the emergency 
response community is poised to take this next step.
    These organizational efforts are complemented by the priority 
services programs managed by the NCS. The Nation's telecommunications 
providers are transitioning from the current circuit switched 
technology to next generation network (NGN) Internet protocol (IP) 
packet-switched technology. The NCS is working closely with private 
industry, National, and international standards bodies to ensure that 
current priority service capabilities continue. The NCS' NGN program is 
intended to ensure that all National security and emergency 
preparedness users continue to have priority service capabilities in 
the next-generation network environment. These capabilities, and NCS's 
expertise, provide vital support to public safety communications as the 
Nation migrates towards an IP-based communications environment.
                            dual path model
    As broadband communications capabilities are layered into the 
emergency communications enterprise, it is essential that we leverage 
the strategies, policy, governance structures, and coordination groups 
that support current emergency communications capabilities to address 
the challenges and opportunities of the broadband world. We are not 
starting from scratch, and we cannot forget the importance of 
continuing to support and improve current day-to-day mission critical 
communications capabilities. Based on everything we know today about 
both the state of the technology and the resources of the community, we 
believe that it is unlikely that public safety would transition away 
from LMR in fewer than 10 years. As the first broadband systems are 
built, they will primarily come in the form of broadband wireless cards 
for laptops, not ruggedized public safety handsets that handle both 
data and voice transmissions. While a single unified broadband solution 
for both data transmission and mission critical voice should ultimately 
be possible, only with future refinement of standards, significant 
research and development, and rigorous testing and evaluation will we 
be able to begin moving forward with the transition from mission-
critical voice communications to broadband networks.
    As we concentrate and unify our efforts on building broadband 
communications capabilities, we will continue to partner with public 
safety to ensure continued, robust interoperability alongside full 
broadband implementation. Our goal is to make certain that all 
emergency responders have the capabilities needed to perform their 
essential missions, with respect to both today's communications 
infrastructure and emerging broadband technologies.
                 broadband network policy requirements
    As DHS evaluates any potential plan to develop and deploy a Nation-
wide public safety broadband network, we are focused on a number of 
guiding principles. First and foremost, interoperability must be built 
into any network architecture proposal from the outset. We must use 
lessons learned from the creation of the LMR environment and avoid 
developing systems that are unable to interoperate with each other 
without substantial investment in expensive add-on components.
    Second, coverage in both urban and rural areas is mission-
essential. Emergency responders across the entire range of response 
official--from metropolitan police departments to rural county 
volunteer fire departments--must benefit from broadband communications 
capabilities to meet their mission requirements. This network must be 
able to address earthquakes in San Francisco as well as wild fires in 
Montana. It needs to provide coverage for potential terrorist events in 
New York City and hurricanes in rural Louisiana. This effort is about 
connecting everyone, no matter where in the United States they live.
    Third, the solution must allow public safety devices to heavily 
leverage commercial technology. Within the current LMR environment, 
public safety handset costs can range from hundreds to several 
thousands of dollars per unit, largely because they are not able to 
leverage the economies of scale from which commercial customers 
benefit. The same generally holds true for infrastructure components--
towers, base stations, switching equipment, antennae, and backhaul 
facilities. If public safety and commercial providers can leverage 
common infrastructure, chipsets, and base station technologies which 
also meet public safety requirements, both sides will benefit.
    Finally, any solution must provide a path for the network to evolve 
and grow, progressively adding greater capability and providing better 
mission support.
    The release of the FCC's National Broadband Plan (NBP) has focused 
much-needed attention on developing a Nation-wide public safety 
broadband network. While reactions have been strong both for and 
against elements of the plan, DHS believes that the increased attention 
to this challenge, and ensuring transparency in meeting it, will result 
in stronger solutions. The NBP's key public safety recommendations are 
far-reaching and the administration is currently examining the NBP as 
part of the National Science and Technology Council's subcommittee on 
broadband. DHS is working closely with the administration on the Public 
Safety portions of the plan.
    The administration strongly supports building a National public 
safety broadband network capable of meeting the mission requirements of 
public safety. Moreover, the administration is committed to a dedicated 
funding stream to help fund the network using revenues derived from 
spectrum initiatives.
    The administration recently provided the opportunity for funding a 
portion of the Nation-wide public safety broadband network when the 
Department of Commerce reopened the second round of the Broadband 
Technology Opportunities Program (BTOP) to allow 21 jurisdictions to 
compete with other applications for Federal grant funding. If a public 
safety applicant is successful, they may use those funds to begin 
building out systems that make use of public safety broadband spectrum. 
We support the FCC's decision to grant waivers to these 21 
jurisdictions for conditional use of currently allocated spectrum to 
promote the development of technological solutions, processes, and 
procedures that can inform the deployment of other jurisdictions 
throughout the United States. We are hopeful that these applicants will 
submit competitive, well-thought-out applications. Successful public 
safety applicants could help lead the way and accelerate the 
development and deployment of broadband communications capabilities 
across the United States. At the same time, we note that it is 
critically important that these jurisdictions build to a single 
consistent standard so that the resulting system of systems is both 
operable and interoperable.
    The Department of Commerce is also sponsoring a significant 
initiative--the Public Safety Broadband Demonstration Network--at its 
Boulder, Colorado labs, where Federal agencies, public safety, and 
industry will come together to promote public safety broadband 
technologies and evaluate equipment. This initiative will help ensure 
that objective data can be provided to public safety on the 
capabilities and limitations of broadband devices as they become 
available. Earlier this month I visited the Boulder labs as part of 
DHS's on-going efforts to ensure that public safety's technical 
questions and needs are being addressed. Among other efforts, DHS is 
facilitating direct public safety community participation in the 
evaluation process and looks forward to continuing to partner with the 
Department of Commerce to ensure that emergency responders can 
participate in these efforts.
                              the d block
    At the Department, our efforts are focused on ensuring that public 
safety has the capabilities to communicate as needed, on demand, and as 
authorized at all levels of government and across all disciplines. The 
arguments for and against reallocation of the D Block are extremely 
complex, and we believe that any proposal must meet the needs of public 
safety and adhere to the guiding principles I laid out earlier. Under 
the FCC's proposal, public safety communications would transition into 
a commercial environment characterized by increased infrastructure to 
maximize spectrum reuse and the utilization of commercial chipsets and 
base station technology to achieve significant cost and capability 
advantages for public safety users and the Nation. We believe that the 
FCC's proposal has merit, with a number of significant caveats.
    First, the FCC's proposal relies on development of a new generation 
of technical capabilities and additional legal authorities, which are 
intended to allow public safety to roam onto commercial spectrum with 
priority access in emergency events. Both the technical and legal 
frameworks for this type of plan must be evaluated, and capacity and 
capability outcomes understood, before any decision can be made 
regarding the spectrum requirements for public safety.
    Second, the FCC's plan will necessitate sufficient funding to build 
out the infrastructure required for the network. Effective network 
operations require that sufficient cell sites and base stations be 
built out and that the network be hardened as appropriate. One 
significant advantage of the FCC's plan is that network costs are 
expected to be significantly less than other alternatives, and costs 
are of course an important factor for public safety.
    Third, the FCC expects that commercial networks can ultimately be 
enabled to handle not only mission-enhancing public safety data 
communications traffic but eventually, mission-critical public safety 
voice traffic as well. While the use of Long Term Evolution wireless 
broadband technology as a replacement for existing public safety voice-
traffic systems is years away, it is essential that significant efforts 
be undertaken now to solve the following critical technical challenges 
associated with public safety use of commercial networks:
    (1) The networks and associated equipment must be able to operate 
        in a one-to-many mode, as LMR systems do today, in addition to 
        the one-to-one mode of typical commercial cellular phone 
        systems.
    (2) The networks and associated equipment must be able to operate 
        peer-to-peer (or handset-to-handset) in the event of network 
        outages;
    (3) The networks must be able to provide clear understandable voice 
        communications in high-noise environments like burning 
        buildings, and with minimal voice delay; and
    (4) The networks must be able to penetrate to and from the interior 
        of large buildings without significant degradation of 
        capability.
                            the path forward
    To move forward, working in close partnership with the public 
safety and emergency response community, and with support from the FCC, 
the administration, through the Department of Homeland Security and the 
Department of Justice is establishing a joint task force on public 
safety interoperability to better understand and identify public safety 
requirements, test assumptions and approaches associated with meeting 
those requirements, recommend technical, policy, process, and 
governance solutions, and coordinate with the FCC. This task force will 
allow personnel from several of the departments and agencies with major 
interoperability competencies to work in partnership with the public 
safety community.
    The administration also plans to convene a forum this fall to 
discuss funding, spectrum requirements, technology issues, and 
governance models necessary to support the development of a next 
generation network for public safety communications.
                              dhs support
    DHS is committed to supporting public safety and pursuing a dual 
path strategy that steadily improves mission-critical voice 
communications capabilities while investing in the deployment of a 
Nation-wide public safety broadband network. We will continue to 
provide technical assistance and governance support, share best 
practices and lessons learned, and provide venues for coordination for 
our Nation's emergency responders as they maintain and improve their 
day-to-day mission-critical communications networks, procedures, and 
protocols.
    We will support the 21 waiver jurisdictions as they begin their 
efforts to deploy the Nation's first public safety broadband systems in 
700 MHz public safety spectrum. We will work with these jurisdictions 
to ensure that their efforts create an interoperable system of systems 
that allows users from all jurisdictions to converge and operate 
seamlessly in the event of an incident of National significance. We 
will leverage the best practices and lessons learned from these efforts 
to encourage their integration into broadband communications 
capabilities.
    Within the next year, we will release a revised version of the 
NECP, which will lay out the policy and strategic direction for 
integration of public safety communications across all technology 
platforms and more explicitly integrate the dual path model. We will 
also apply our IP packet prioritization and standards expertise to the 
challenges facing the public safety community.
    We look forward to working with other Federal departments and 
agencies and Congress to explore additional opportunities for Federal 
partnerships with a new Nation-wide public safety broadband network.
                               conclusion
    We must seize the opportunity to build a Nation-wide public safety 
broadband network that will provide cutting-edge capabilities to our 
first responders. We will aggressively work to support public safety 
agencies as they integrate broadband data capabilities into their 
emergency communications systems, protocols, and governance structures. 
This is a once-in-a-generation opportunity, and we must get it right.
    Thank you for this opportunity to testify, and I would be happy to 
answer your questions.

    Ms. Richardson. I thank all the witnesses for your 
testimony. I will remind each Member that he or she will have 5 
minutes to question the panel, and I will recognize myself 
first for questions.
    You know, I am going to do something that staff will always 
tremor when a Member does, and I am going to divert a little 
bit from my questions and ask you one that I have for myself.
    In many industries, whether it is alcohol and tobacco, 
whether it is oil companies or even networks, in those 
industries there is a small fee that oftentimes the various 
providers will pay that will contribute to an overall good that 
an agency would provide.
    Has there been any discussions about why the networks 
themselves, the companies that benefit from the megahertz, why 
we wouldn't just have a small fee based upon X amount to be 
able to pay for a public safety network that benefits them as 
well as the entire public?
    Admiral Barnett. Congresswoman, we looked at some 27 
different permutations of ways to be able to make the network 
work. If what you are talking about is the actual public safety 
spectrum that is public safety's.
    They can only exist in that and so actually they would be 
contracting, they can even build it themselves under our plan 
or they can contract with a carrier or somebody else. But it is 
their spectrum so----
    Ms. Richardson. No, sir, what I am asking is, and let me 
give you an example. When I worked in the State legislature I 
was on government operations, which included alcohol, tobacco, 
and gaming.
    The alcohol and tobacco companies paid a certain amount of 
fees, some might call it a tax, whatever you might call it, 
they paid a general fee for per bottle or per whatever it was, 
and that went into, for example, the education of, you know, 
Alcoholics Anonymous and so on.
    My question is, why wouldn't we be talking to AT&T, 
Qualcomm, Verizon, and many of these other providers and say, 
okay, by having them participating in the 700 megahertz band, 
that you would pay X amount of fee and that those funds would 
be utilized to build our public safety network?
    Admiral Barnett. Now I understand what you are asking, 
Chairwoman.
    Ms. Richardson. Yes.
    Admiral Barnett. Actually, so one of the things we looked 
at, and while we leave to Congress the general concepts of 
funding the network, one of the things we wanted to put forward 
is operation of the network.
    That we looked at, in essence, the FCC being able to, as 
one suggestion, to levy some type of, you know, fee I guess you 
could say against the various carriers that would go into a 
fund that would help the various public safety agencies operate 
their network, maintain their network, and this is very 
important, upgrade their network.
    Because we want, as Assistant Secretary Schaffer said, we 
want to make sure that public safety keeps up with its 
commercial technologies it develops rather than locked in to 20 
years as we had in the past.
    Ms. Richardson. Admiral, with all due respect, I am sorry. 
I have only got 2 minutes left. So my question is, I heard 
everything that the Secretary said and, in fact, I read all of 
your testimony last night at about midnight. So I get that. My 
question is has there been a discussion about assessing a fee, 
and if there was what were the thoughts of that discussion?
    Admiral Barnett. Yes, ma'am. There have been thoughts about 
that, and one of the recommendations in the plan is to assess a 
fee that would go into funding public safety's operation and 
maintenance of the network.
    Ms. Richardson. Okay. Could you supply that information to 
this committee?
    Admiral Barnett. Yes, ma'am. I will be glad to.
    Ms. Richardson. Thank you very much. Okay, also Admiral, as 
you know, a majority of the public safety organizations oppose 
the NBP's auction recommendation while a few groups support 
this auction. I would like to submit for the record a statement 
from the Fraternal Order of Police supporting the National 
Broadband Plan. Seeing no objection it is submitted into the 
record.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Ms. Richardson. In general, most of the public safety 
community has said that the FCC has not been willing to work in 
a collaborative way with them in the development of the rollout 
of the NBP's planned D Block recommendation.
    Please describe in detail what efforts have been taken to 
work with public safety to discuss their concerns prior to the 
D Block recommendation being made. Specifically, how many 
stakeholder meetings have occurred to hear their concerns?
    Admiral Barnett. Chairwoman, I actually went back and 
looked at this. We have had literally hundreds of meetings, 
telephone calls, conference calls, workshops, forums, technical 
forums where we bring people in. I think the witnesses that you 
will have on your second panel will be able to tell you I have 
never refused a meeting with anyone who requests it. Often I 
will call to request it.
    So we took a great deal of input and the National Broadband 
Plan benefitted greatly by it. I would have loved to have been 
able to agree with them on the D Block. It is just that the 
data did not show that, and we feel like we had a 
responsibility to Congress to tell you exactly what we found.
    Ms. Richardson. Would you supply that list to this 
committee?
    Admiral Barnett. I would be glad to. Yes, ma'am.
    Ms. Richardson. Then my last question before I defer to the 
Ranking Member, did public safety actually participate in 
assisting with the drafting of the recommendation?
    Admiral Barnett. No, ma'am. At that point the actual 
recommendations after we took all the input we analyzed it and 
put it into the broadband plan as the FCC does with its other 
decisions and even in its rulemakings.
    Ms. Richardson. Are you opposed to working with them to 
discuss your current recommendations and to maybe consider a 
compromise?
    Admiral Barnett. I am always open to working with and 
talking to public safety.
    Ms. Richardson. Thank you.
    With that I will defer to our Ranking Member from Alabama, 
Mr. Rogers, for 5 minutes.
    Mr. Rogers. Thank you. First let me say it is pleasant to 
hear somebody with an accent like mine in this town.
    [Laughter.]
    Admiral Barnett. We don't have accents.
    Mr. Rogers. We don't, but all these Yankees do.
    [Laughter.]
    Mr. Rogers. Admiral, in your opening statement you made the 
point that we have an outdated equipment in our communications. 
Why is it--and I have been on this committee 7 years--we have 
spent a fortune trying to make sure that our public safety 
folks can communicate with one another. But yet we still have 
these interoperable problems?
    I would like for you to tell me why you think that is and I 
would like for Mr. Schaffer to tell me his thoughts on that.
    Admiral Barnett. You know, in a very brief statement I 
think the reason is because it is so expensive. The public 
safety agencies have to invest in, in essence, amortize it over 
20 and 30 years. So as technological advances occur for 
interoperability it is very hard to get everybody on the same 
page at the same time.
    That is why this technological clean slate is so important. 
It is not going to last long. We really have to act quickly on 
it, but that is one of the reasons and one of the major 
reasons, I think, that we cannot--we spent $8 billion of 
Federal money alone in the last 5 years.
    Mr. Rogers. I know.
    Mr. Schaffer.
    Mr. Schaffer. Congressman, I think one of the key issues 
that we have discovered over the last couple of years in 
particular, is that it is not just about the technology. It is 
about the governance structures, the training, the 
opportunities to have standard-based solutions.
    What we have done in the last 2 years since the National 
Emergency Communications Plan was first published, is put in 
place a National structure that has cascaded into State 
structures and local structures. We have State interoperability 
plans at this point.
    We have individuals at the State level who have 
responsibility for managing interoperability for all of the 
local and State resources. That was something that started 2 
years ago when the National plan was published and, as 
mentioned, the plan will be updated to focus on some of the 
interoperability issues around the broadband solutions as well 
as we go forward.
    But having those structures in place is critically 
important to make sure that the technology that we are using is 
able to deliver the kind of interoperability that is needed.
    So it is good that we have a clean slate with technology 
and there is tremendous opportunity on broadband for the data 
solutions there in the mission critical voice areas the use of 
systems that are used today by public safety to do their day-
to-day job.
    We need to continue doing what we have been doing as well. 
So both are equally important I believe.
    Mr. Rogers. Do you require in that plan that local 
governments or State governments have to buy equipment or use 
equipment that will network in exchange for the Federal funds 
to pay for it?
    Mr. Schaffer. There is grant guidance in a variety of 
different ways. One of the things that is happening now is that 
there is a move to make all of the various grants, whether it 
is the Department of Justice grants, the Department of Homeland 
Security grants and other places through the ECPC we are 
working to have all the grant guidance aligned.
    So the Emergency Communication Preparedness Center--that is 
one of the work streams that they are engaged in to try to get 
grant guidance all aligned in a way that will lead to greater 
interoperability.
    There have been a number of moves within the plan to drive 
interoperability and to have all of those pieces line up in a 
way that will now need to coordinate what the broadband pieces 
as well.
    Mr. Rogers. Great. Admiral--oh, wait, I am sorry, Mr. 
Schaffer. In your testimony you discussed the creation of a 
task force that includes FCC, NTIA, and the Department of 
Justice on the issue of public safety broadband initiative.
    However, Congress also established the Emergency 
Communications Preparedness Center in 2006. Now, the ECPC was 
specifically established to avoid duplication, hindrances, and 
counteractive efforts among the participating Federal agencies. 
Could you please explain the purpose of this task force and how 
would you respond to the accusation that this is simply another 
layer of bureaucracy?
    Mr. Schaffer. Yes, Congressman. The ECPC has a very broad 
mandate. It is focused across the Federal enterprise. Right now 
membership with 14 departments and agencies that are most 
heavily involved in emergency communications, to address 
communications issues across that Federal enterprise to try to 
coordinate, create better leverage, do things like focus on the 
grant guidance, find ways to leverage across the Federal 
departments and agencies.
    They are focused on things well beyond the broadband plan 
and the very specific issues around the deployment of a single 
network within the 700 megahertz space and the issues that that 
brings up.
    The administration has created this task force to focus on 
that very narrow issue with respect to the broadband plan and 
its implementation and whether or not the current proposals are 
the ones that are best suited to bring things forward.
    So it is a task force designed to focus on what the FCC has 
done and bring some additional analysis, ensure that public 
safety's concerns, questions, and issues are being looked at by 
the administration as well as the FCC.
    The FCC has spent a year preparing their plan and focusing 
on it. The administration is trying to put some focus on it as 
well, and that is what the task force is really about.
    Mr. Rogers. Good. Thank you, Mr. Schaffer. My time has 
expired.
    Ms. Richardson. You asked my third question.
    Mr. Rogers. Okay. Glad to help.
    Ms. Richardson. The National Broadband Plan will provide 
safety with additional capacity by requiring commercial 
carriers to support roaming and priority access on commercial 
networks as you testified, Mr. Schaffer.
    As I understand it, priority access merely means putting 
public safety at the head of the line, but does not guarantee 
that they can get on a system that is already clogged with 
consumer traffic, a situation that routinely occurs at the 
scene of an emergency.
    What happens if commercial carriers are unable to provide 
the priority access because their own systems are already 
overloaded? Who is liable if the system is not available when 
the public safety needs it most? Finally, how would commercial 
providers prioritize spectrum use among fire and police in one 
or multiple jurisdictions or among State and Federal officials?
    Mr. Schaffer.
    Mr. Schaffer. Chairwoman, there are key in our approach 
from DHS perspective is making sure that our public safety 
resources have what they need in order to execute in their 
mission space. So we are very interested in how the priority 
and roaming access will actually operate.
    The good news is that the technology that has been selected 
by the FCC has been endorsed by the public safety resources has 
a lot of capability with respect to priority that did not exist 
in prior iterations of the technology.
    There are questions, however, in terms of both how that 
technology will work in practice as opposed to in the standards 
and what the legal regimes will need to be in order to ensure 
that that roaming and priority access is instantiated and 
capable to move forward in a way that actually works.
    So until some of those questions are resolved, it is very 
hard to know exactly how that will work and how you will 
prioritize, for example, as you asked, between police and fire 
and other resources.
    But those are the kinds of questions that we are looking at 
with respect to the task force and trying to work with the FCC 
to understand what their plan is in terms of how to execute in 
those spaces.
    Ms. Richardson. Well, let me put it this way, Mr. Schaffer, 
just like real Americans. Okay, if I am on a plane and I have 
priority access, let us say, to upgrade. I have half a million 
miles, and I have priority access to be able to upgrade to 
first class.
    But if there are no seats, I don't get upgraded. So in my 
opinion, priority access means nothing in terms of emergencies 
because if there is an emergency, we don't need priority. We 
need to be in.
    So, my question would be how is it that the FCC could 
propose a plan that the administration and you would be 
supporting when we don't even have the answer to that question? 
Because priority access is not adequate, as you said, we don't 
even have the answer to the question yet, if in the event an 
emergency occurs.
    Mr. Schaffer. Ma'am, I want to be very clear that we are 
analyzing and raising questions with respect to exactly how 
that roaming and priority access would work in just the way 
that you are.
    We don't have the details yet of exactly how that function 
will work. There are various ratings and methodologies with 
which one could implement priority access, preemptive access. 
There are various ways that this could be done. Of course----
    Ms. Richardson. How could you support an auction going on 
if you don't have the answer to that question?
    Mr. Schaffer. Again, we at this point are saying that we 
believe that a decision on an auction needs to await some of 
these technical answers being worked out.
    Ms. Richardson. So is it your testimony that the 
administration and your department is not supporting the 
continuation of the auction until these questions are answered?
    Mr. Schaffer. We are indeed at this point analyzing these 
questions and looking to resolve some of the issues before an 
auction final decision is made, yes.
    Ms. Richardson. Okay. We already--Mr. Rogers brought up the 
question about the duplication of effort and lack of 
coordination. I guess I didn't clearly understand though in a 
clear answer why is it that the current centers still can't do 
it? Why is it the insistence on another commission? I mean, I 
work 18 hours a day.
    [Laughter.]
    Mr. Schaffer. I believe we are all putting our time in. As 
a practical matter, I think it is a question of focus. ECPC is 
made up of resources that primarily handle emergency 
communications for the Federal departments and agencies.
    The questions at issue here are 700 megahertz spectrum 
questions which is public safety, State, local, Tribal 
government spectrum being used, and so it is a slight 
disconnect there. There is a desire to have some aggressive 
focus on the FCC's proposal and reaching some conclusions on 
the kinds of questions that you have been asking this morning.
    So, I think the goal here has just been to make sure that 
we have got focused resources looking into those questions, and 
the ECPC is moving forward with several issues at the Federal 
level for Federal spectrum use, reuse, coordination, leverage, 
et cetera, so just an effort to move as quickly as we can.
    Ms. Richardson. Mr. Rogers, did you have any follow-up 
questions?
    Mr. Rogers. Thank you.
    Ms. Richardson. Okay.
    Mr. Rogers. Chief Barnett, could you go into some detail 
about ERIC which was established as a result of the National 
Broadband Plan?
    Admiral Barnett. Yes, sir. The Emergency Response and 
Interoperability Center was conceived to make sure that we have 
interoperability from the very beginning and on an on-going 
basis. So this is a technological center.
    Basically the engineers and technicians working closely 
with public safety and we are moving forward on basically a--I 
am sorry, a factor committee for public safety to advise us on 
that.
    It is basically to ensure that we are adopting the right 
standards, that encryption, that authentication, that all the 
technical aspects of interoperability are begun and continued 
as we move forward.
    Mr. Rogers. Great. Mr. Schaffer, the goals of the Office of 
Emergency Communications and Emergency Response and 
Interoperability Center at the FCC seem to be in conflict with 
one another. Have OEC and FCC discussed potential conflict, and 
is there a plan in place to ensure the role of ERIC does not 
encroach on OEC?
    Mr. Schaffer. Yes, sir. I believe that there is actually 
complementary opportunity with respect to what OEC is trying to 
do and what the ERIC is trying to do. As the Admiral notes, 
ERIC is focused on some of the technology-specific issues 
around the new network.
    OEC has as its mission coordination of interoperability 
goals across Federal, State, local, and Tribal governments. 
Their responsibilities are mostly in the policy area, 
governance spaces, promotion of appropriate solutions across 
all of that space.
    OEC has been and continues to work with the FCC, with ERIC, 
in order to ensure that we are coordinating between the 
National Emergency Communications Plan, the State-wide plans 
and the other pieces, and what the FCC has in mind for ERIC and 
the broadband capabilities.
    Because as a practical matter, as we said in our testimony, 
it will be important that those be coordinated over the long 
term and that as we move from the narrow band solutions that we 
have today, as we continue to use those systems for mission 
critical voice and start to use the new systems for the data 
solutions and maybe think about, as the FCC has proposed, using 
some voice over those systems, that we are coordinated in the 
way we are trying to do interoperability between the two 
networks.
    So there is a lot of opportunity to leverage what OEC has 
done historically into some of the new spaces and make sure 
that we have consistent interoperability over an extended 
period of time in both the land mobile radio space, which will 
be important for a long time, and the new broadband data 
networks which are just coming on.
    Mr. Rogers. Great. Thank you very much. That is all I have.
    Ms. Richardson. Thank you, Mr. Rogers. Admiral Barnett, in 
addition to concerns about the lack of involvement of public 
safety in this whole entire process and continuing with the 
recommendations, it is also our understanding that the 
Department of Homeland Security, at least visibly of what we 
know, has not been as largely visible or making a statement of 
their stand in support of what the public safety organizations 
are saying. To what degree has the Department of Homeland 
Security been involved?
    Admiral Barnett. Well, from our side, ma'am, we have 
consulted with DHS and Secretary Schaffer, with OEC from the 
very beginning. I came into the FCC in July. I think my first 
meeting with DHS was in August. So we have tried to keep them 
up as we developed.
    Of course, that beginning part we developed were ideas, the 
27 things we visited with them then. We visited with them on 
how it would be funded. So I think there is a pretty good level 
of interaction between DHS and FCC on this question.
    Ms. Richardson. So would you also supply that to this 
committee your involvement with DHS and----
    Admiral Barnett. I would be glad to, ma'am.
    Ms. Richardson [continuing]. How many and how often and 
what was in fact communicated?
    Admiral Barnett. I would be glad to.*
---------------------------------------------------------------------------
    * The information is included in Appendix I.
---------------------------------------------------------------------------
    Ms. Richardson. Thank you. Then for you, Mr. Schaffer, you 
know, you engage a very positive relationship with public 
safety in nature due to the committee's role. What do you think 
that you can do to assist in this impasse that currently does 
in fact exist?
    Mr. Schaffer. Well, I think it is incumbent upon DHS and 
the administration to make sure that public safety's concerns 
are being heard and that they are being examined and explored 
in order to reach some ground truth about what can and can't be 
accomplished with the various solutions that are coming 
forward.
    One of the challenges for everyone here is that the 
technology that is being recommended by the FCC, it is a great 
opportunity because it is brand new, but it is also a challenge 
because it is brand new.
    This technology has not been deployed anywhere in the 
United States. Indeed, it has been deployed almost nowhere in 
the world yet, and so the standards, the solutions, the 
methodologies to bring that set of capabilities forward, it is 
not absolutely clear what it is capable of.
    So NIST, for example, is setting up a network out in 
Colorado that will give an opportunity to test some of these 
solutions and proposals. We have been very heavily engaged with 
the Department of Commerce and that demonstration network for 
the last 2 weeks.
    I have been out to Colorado to work with NIST and to make 
sure that we understand what is coming forward through that 
process and how we can help to examine what the real 
capabilities will be when the technology is available to be 
tested and deployed, so----
    Ms. Richardson. So are you committed to working with the 
public safety community and with the FCC to find a solution to 
this impasse?
    Mr. Schaffer. We absolutely are, yes.
    Ms. Richardson. Okay. I had a follow-up question. You know, 
it seems to me, and unfortunately sometimes the way hearings 
are, it is like we hear from you and then you leave, and then 
our next panel will come up and say some things we would love 
to ask you. So that is why for the record, the committee will 
be able to ask subsequent questions to you and ask you to 
provide them in writing.
    But my question is, you know, I heard both of you in your 
initial testimony and you talked about, you know, one of the 
concerns of just allocating the D Block to public safety would 
be a concern of, you know, archaic system and it not working 
together and all of that.
    You know, it does not behoove the public safety community 
to have a system that would not connect and wouldn't be able to 
be interchangeable. So in what I have read of their testimony, 
I don't understand or I don't get that the objection is that 
they want to create some separate, completely different system.
    It is that they want to be involved in the design of it. 
They want to make sure that the system, in fact, meets the 
demands of what public safety has, which is very different from 
a commercial system. What is the big objection to figuring that 
out?
    Admiral Barnett. We would agree that this should be a 
public safety system, that they should design it. They should 
say what operates on it. That is why, in examining all the 
various options, we rejected a purely commercial system.
    We said that 10 megahertz should be public safety's and 
they should decide how they are going to deploy it. It is only 
when it roams that we suggested that it is able to roam over to 
the commercial networks. So we really do believe that it should 
be a dedicated public safety system.
    Ms. Richardson. So what is the roaming issue?
    Admiral Barnett. The roaming issue is simply--and I don't 
think that they disagree that they want to have it. It is a 
question of whether it roams over on from 10 or 20 megahertz. 
But the roaming issue--and if I could mention also the priority 
access that goes right with it, you mentioned an airplane with 
first class and the economy class.
    Actually with the new technologies, if you are first in 
line, you actually get to go to first class and somebody else 
moves back to economy class. So as soon as your--that are 
playing video games, all of a sudden their performance shuts 
down or at least slows down a good bit.
    But the public safety, the police officer or the 
firefighter, they go to the first of the line, and that is the 
new technology. That is why we can't rely on thinking about the 
old wireless priority system or old way.
    As soon as they punch the button, packets start flowing 
because an internet protocol system and LTE. It is a vastly 
different system. We need to design it with that in mind.
    Ms. Richardson. Well, with all due respect, sir, I have 
been in Congress now, it will be just under 3 years, and 
unfortunately what I have experienced in some of the disasters 
and emergencies that have occurred is sometimes what we think 
will work in a system doesn't always work, especially in an 
emergency.
    So, I would be of the mind, and I look forward as this 
discussion continues, but I don't think we need public safety 
to push a button and then they get in line. If we have an 
emergency, we may not have time for them to push the button. 
They have already got to be first in line. So we have got to 
figure out how to get a solution to get us there.
    Mr. Rogers, did you have any further questions? Okay, so to 
wrap up the things that you are going to provide to this 
committee, No. 1 is a list of the meetings and the attendees 
for both the meetings that included public safety as well as 
the Department of Homeland Security.
    No. 2, the FCC you are going to provide us information on 
the discussions that took place about levying a fee within the 
industry to be able to assist in the payment of a public safety 
system.
    No. 4, Mr. Schaffer, you are going to give us more of a 
further understanding prior to an auction going forward of how 
we are going to ensure that priority access does in fact 
include not priority access but immediate access to public 
safety.
    Okay, any further things, Mr. Rogers? All right. So I thank 
the witnesses for being here for your valuable testimony and at 
this time we ask the clerk to prepare the room for the next 
panel.
    Thank you very much.
    Our first witness that we have is Chief Jeff Johnson. He is 
the president and chairman of the Board for the International 
Association of Fire Chiefs.
    That organization represents the leadership of over 1.2 
million firefighters and emergency responders. Chief Johnson 
also serves as fire chief and administrator of the Tualatin 
Valley Fire and Rescue in Oregon, which is a beautiful area.
    Our second witness, Deputy Chief Charles Dowd, is the 
commanding officer for the Communications Division of the New 
York City Police Department. In this capacity, Chief Dowd is 
responsible for the world's busiest 911 system, receiving over 
11 million calls per year.
    The New York Police Department's radio operations, 
dispatching 4.9 million radio runs annually. Chief Dowd is a 
30-year veteran of the New York Police Department and is a much 
respected guest of our Ranking Member, Mr. King.
    Our third witness, Mr. Robert A. LeGrande, II, is the 
founder of the Digital Decision, formerly known as LeGrande 
Technical and Social Services.
    Previously, Mr. LeGrande was the chief technology officer 
for the District of Columbia, where he provided leadership for 
the city's wireless network operations, human services 
modernization program and the National Capitals Region 
Interoperable Communications program.
    Our fourth witness, Mr. Eric Graham, serves as the vice 
president for the Strategic and Government Relations for 
Cellular South, which provides wireless services in all of 
Mississippi as well as portions of Tennessee. Here we have 
another accent of Alabama and Florida.
    Mr. Graham directs the Cellular South policy agenda and is 
responsible for the company's overall advocacy and efforts with 
specific focus on Federal issues. Mr. Graham is testifying on 
behalf of the Rural Cellular Association today.
    Without objection, the witnesses' full statements will be 
inserted into the record, and I now ask that Chief Johnson 
summarize his statement for 5 minutes.

 STATEMENT OF CHIEF JEFFREY D. JOHNSON, PRESIDENT AND CHAIRMAN 
     OF THE BOARD, INTERNATIONAL ASSOCIATION OF FIRE CHIEFS

    Chief Johnson. Thank you, Chairwoman Richardson and Ranking 
Member Rogers. I am Jeff Johnson, president of the 
International Association of Fire Chiefs and fire chief in 
Tualatin Valley, Oregon. I thank you for the opportunity to 
discuss H.R. 5081, which allocates the D Block of spectrum 
directly to public safety. This is a top priority for America's 
fire service leadership.
    On behalf of the IFC and the partners of the Public Safety 
Alliance, I thank Representatives Peter King and Yvette Clarke 
as well as over 50 co-sponsors, who clearly understand public 
safety's need for this unique slice of spectrum.
    As you are aware, the U.S. Senate has also introduced 
legislation which will accomplish this goal. We are grateful 
for this response from Congress for what is public safety's 
most important issue.
    Over the past 50 years, the Federal Communications 
Commission has allocated thin slices of spectrum to public 
safety as the need for more communications capability arose. 
Currently 55,000 public safety agencies operate mission 
critical radio systems, each with their own FCC license, over 
six or more different bands.
    Our goal of interoperability is difficult and it is 
expensive. This is no criticism of the FCC. This is just the 
way it has always been done. After the events of 9/11, Katrina, 
and other major disasters, it is clear that a new model is 
necessary, a National architecture for public safety wireless 
communications.
    To achieve a Nation-wide public safety wireless, 
interoperable broadband network, a single licensee and a single 
technology is required, operating on a network with sufficient 
capacity to handle to day-to-day operations, as well as the 
capability to manage major incidents. This network needs to be 
mission-critical from the outset.
    In the beginning, this system will handle only data and 
video and at some future time, years away, we envision a 
possible transition to mission-critical voice, namely radio 
over internet protocol.
    We all need to take a long-term view to start out with 
sufficient spectrum so that we have the ability to migrate to 
mission-critical voice if the technology is developed and 
public safety gains confidence in it.
    The following elements of mission-critical are key to a 
successful public safety network. The network must be hardened 
to public safety standards, which means that the towers must 
withstand elements that might otherwise disable a lesser 
system.
    Two, public safety must have control over it. We cannot 
have commercial providers deciding what is or is not an 
emergency, at the end of the day, public safety must have their 
hand on the joystick.
    Third, the public safety mission-critical voice network 
must have the ability to broadcast and receive one-to-one and 
one-to-many without changes to the network. This so-called 
talkaround capability is also known as simplex and from a 
commander's perspective, this is an imperative in a system 
design.
    Fourth, the network must have backup capabilities in the 
event of network loss. There are many critical needs that can 
be met with broadband data and video in the fire service, 
building diagrams available to commanders, hazmat inventories, 
wild land fire situation awareness, video feeds from trauma 
patients directly into the emergency room, and the list is 
endless. Law enforcement also has a list of needs.
    The point is in order to achieve a Nation-wide public 
safety broadband network we need the 10 megahertz of the D 
Block spectrum. Currently it is slated for FCC auction to be 
added to our current 10 megahertz of spectrum known as the 
public safety broadband, which is currently allocated to public 
safety.
    As you can see from the spectrum chart, this spectrum, the 
D Block, is perfect for public safety. This is yours and our 
one-time opportunity to get this right. The public safety 
community urges a prompt and timely passage of H.R. 5081.
    Madam Chairwoman and Ranking Member Rogers, we want to 
assure you and your colleague that we are working tirelessly 
with Members of Congress, the FCC, and the Department of 
Homeland Security and anyone else in the administration that 
will hear our issue to achieve this important public safety 
goal.
    Thank you for the opportunity to be here, and I look 
forward to answering your questions.
    [The statement of Chief Johnson follows:]
                Prepared Statement of Jeffrey D. Johnson
                              May 27, 2010
    Mr. Chairman: I am Jeffrey Johnson, president of the International 
Association of Fire Chiefs (IAFC) and chief of the Tualatin Valley Fire 
Department in Beaverton, Oregon. I thank you for the opportunity to 
discuss H.R. 5081 which allocates the D Block of spectrum directly to 
public safety. This is a top priority for America's fire service 
leadership and the only one for the Public Safety Alliance. (PSA 
membership list attached)
    On behalf of the IAFC and the partners of the Public Safety 
Alliance, I thank Representatives Peter King and Yvette Clark as well 
as over 50 cosponsors--and the number is growing--who clearly 
understand public safety's need for this unique slice of spectrum. As 
you are aware, the U.S. Senate has also introduced legislation which 
will accomplish this goal. We are grateful for this response from 
Congress for what is public safety's most important issue.
    Over the past 50 years, the Federal Communications Commission (FCC) 
has allocated thin slices of spectrum to public safety as the need for 
more communications capability arose. Currently, 55,000 public safety 
agencies operate mission-critical radio systems--each with their own 
FCC license--over 6 or more different bands. Our goal of 
interoperability is difficult; it is expensive. This is no criticism of 
the FCC; this is just the way it has always been done. After the events 
of 9/11, Katrina and other major disasters, it is clear that a new 
model is necessary: That is a National architecture for public safety 
wireless communications.
    To achieve a Nation-wide, public safety, wireless, interoperable, 
broadband network, a single licensee and a single technology is 
required operating on a network with sufficient capacity to handle day-
to-day operations as well as the capability to manage major incidents. 
This network needs to be mission-critical at the outset. In the 
beginning, this system will handle only data and video. At some future 
time--years away--we envision a possible transition to mission-critical 
voice, namely Radio over IP. We all need to take a long-term view--to 
start out with sufficient spectrum so that we will have the ability to 
migrate to mission-critical voice if technology eventually supports it. 
This will happen when the technology is developed and public safety has 
confidence in it.
    The following elements of mission-critical are key to a successful 
public safety network:
  <bullet> The network must be hardened to public safety standards.--
        This means towers must be able to withstand the elements that 
        might disable them. Towers in hurricane-prone areas and tornado 
        alleys must be designed accordingly. Back up electrical power 
        must be available 24/7.
  <bullet> Public safety must have control over it.--We cannot have 
        commercial providers deciding what is or is not an emergency 
        and what is the priority. Public safety transmissions have to 
        go through at the moment--without delay. The lives of fire 
        fighters, the lives of medics, the lives of law enforcement 
        officers depend on this. This is our responsibility.
  <bullet> The public safety mission critical voice network must have 
        the ability to broadcast and receive one-to-one and one-to-many 
        and the ability to broadcast and receive without the network 
        infrastructure being operative.--This is called ``talk around'' 
        capability--also known as simplex. This is a command-and-
        control imperative. You know that we operate under extremely 
        hazardous conditions. If the network, for any reason, cannot 
        provide connectivity, then we need the capability to 
        communicate without the network. This means communicating in 
        the simplex mode. And, that is the heart of public safety 
        communications.
  <bullet> The network must have back-up capabilities in the event of 
        network loss.--We envision satellite capability for the network 
        to be available when a tower is disabled. Satellite can also 
        cover remote areas that don't have towers. Our mission is 
        geography-oriented whereas commercial carriers are concerned 
        with population.
    Here are some of the critical needs that can be met with broadband 
data and video in the fire service: Building diagrams, hydrant 
locations, haz-mat inventories, traffic controls that clear the 
response routes, real-time video to improve situational awareness, 
wildland fire thermal and weather imaging, video feed of trauma 
patients directly to the ER, freeway traffic cameras streamed to 
responders so that the precise location and severity of an incident can 
be accurately determined. The list is endless. And I can tell you that 
law enforcement has its own long list.
    The point is, in order to achieve a Nation-wide public safety 
broadband network to provide connectivity coast to coast, border to 
border, we need the 10 MHz of D Block of spectrum, currently slated for 
FCC auction, to be added to the current 10 MHz of spectrum licensed to 
the Public Safety Broadband Licensee to build out a 20 MHz network. You 
can see on the spectrum chart, below, that this is the ideal spectrum. 
The public safety block abuts the D Block. This is perfect for public 
safety. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Only with this particular spectrum configuration, and none other, 
can public safety be assured that it will have the ability to build the 
network it needs now and into the future. This is yours and our one-
time opportunity to get this right.
    We urge prompt and timely passage of HR 5081.
    Mr. Chairman, we want to assure you and your colleagues that we are 
working tirelessly with Members of Congress, the FCC, Department of 
Homeland Security and others in the administration to achieve this 
public safety communications landmark.
    Thank you for the opportunity to be here this morning. Now I am 
available to respond to any questions you may have.
                Attachment.--The Public Safety Alliance
    The Public Safety Alliance is a partnership with the Nation's 
leading public safety associations, which includes International 
Association of Chiefs of Police, International Association of Fire 
Chiefs, National Sheriffs Association, Major Cities Chiefs Association, 
Major County Sheriffs Association, Metropolitan Fire Chiefs 
Association, International, National Emergency Management Association, 
and APCO. The partnership is operated as a program of the Association 
of Public-Safety Communications Officials (APCO) International.
    The purpose of the Public Safety Alliance's is to ensure law 
enforcement, fire, and EMS agencies are able to use the most 
technologically advanced communications capability that meets the 
difficult, life-threatening challenges they face every day as they 
protect America.
    The goal of the Public Safety Alliance is to raise awareness in 
Congress and the White House about what our Nation's law enforcement, 
fire, and emergency medical services need to build out a Nation-wide, 
interoperable, 4G, wireless communications network to protect America.
    International Association of Chiefs of Police; International 
Association of Fire Chiefs; National Sheriffs Association; Major Cities 
Chiefs Association; Major County Sheriffs Association; Metropolitan 
Fire Chiefs Association; Association of Public-Safety Communications 
Officials International; National Emergency Management Association.

    Ms. Richardson. Thank you for your testimony.
    I now recognize Chief Dowd to summarize to his statement 
for 5 minutes.

   STATEMENT OF DEPUTY CHIEF CHARLES F. DOWD, COMMUNICATIONS 
           DIVISION, NEW YORK CITY POLICE DEPARTMENT

    Chief Dowd. Good morning, Madam Chairwoman Richardson, 
Ranking Member Rogers. I am Deputy Chief Charles Dowd, 
commanding officer of the New York City Police Department's 
Communication Division.
    On behalf of Police Commissioner Ray Kelly, I want to thank 
you for the opportunity to discuss with you today the critical 
need for Congress to act to ensure that public safety agencies 
will be able to communicate effectively now and in the future.
    I speak today not only for the NYPD and the City of New 
York but also on behalf of my colleagues in law enforcement who 
are part of the Public Safety Alliance, whose member 
organizations include the International Association of Chiefs 
of Police, the National Sheriffs Association, the Major Cities 
Police Chiefs, The Major County Sheriffs' Association, the 
Association of Public Safety Communications Officials, and the 
National Emergency Management Association.
    We are also gratified by the continued support of the Big 
Seven and a host of organizations too numerous to mention.
    We are greatly encouraged by the widening support in the 
House for the bipartisan bill introduced in April by 
Representatives Peter King and Yvette Clarke.
    This legislation, H.R. 5081, Broadband for First Responders 
Act of 2010 currently co-sponsored by--I had 55, I think we are 
up to 57 now, Members of the House--calls for the reallocation 
of the D Block directly to public safety.
    We would like to take this opportunity to applaud Senator 
Joseph Lieberman, Senator John McCain, and Senator John D. 
Rockefeller for their recent commitment to support allocation 
of the 10 megahertz of spectrum known as the D Block to public 
safety for the creation of a Nation-wide public safety 
interoperable broadband mobile network which will assist public 
safety to continue to protect the communities Nation-wide.
    Senator Lieberman and Senator McCain announced last week 
the introduction of the First Responders Protection Act of 2010 
in the U.S. Senate. This bill would not only allocate the D 
Block to the public safety community, but would ensure that 
funding is available for a Nation-wide public safety 
interoperable mobile broadband network.
    We are also pleased by the recent announcement by Senator 
Rockefeller that he intends to introduce the Public Safety 
Spectrum and Wireless Innovation Act. This legislation would 
allocate the D Block to public safety and provide the funding 
to create and implement a public safety interoperable broadband 
network.
    The President's recently-issued executive memorandum 
directing a study to identify 500 megahertz of additional 
spectrum for commercial broadband services over the next 10 
years is very encouraging.
    The plan calls for the initial proceeds from the sale of 
this spectrum to be allocated to the build-out of the Nation-
wide public safety broadband network. Since the D Block 
accounts for less than 2 percent of the total spectrum to be 
identified, we see this action as an action that could 
potentially solve both problems of funding and spectrum.
    Sales of some of the other 500 megahertz of spectrum would 
support public safety build out while still allowing for the 
reallocation of the D Block. Many of us in public safety have 
previously stated that broadband technology would create a 
paradigm shift in public safety communications.
    The recent event in Times Square confirms the need for 
information sharing capabilities that will allow first 
responders to be effective in preventing such an attack. The 
ability to share information in real time on a local, State, 
and Federal level is critical to that goal.
    We have heard recently that allocation of the D Block to 
public safety has been referred to as a gift. This is an 
inaccurate characterization. It is an investment in our 
National security that is desperately needed.
    In 1932, the NYPD took an historic step that changed 
forever how the department responded to emergencies. It 
invested in its first radio communications network. This 
created a paradigm shift in policing.
    Its importance was such that the NYPD changed the name 
patrol car to RMP or radio motor patrol car, a term still used 
some 78 years later. That technology has remained virtually 
unchanged for 80 years.
    Broadband is the technology that will create the next 
paradigm shift for public safety communications and ultimately 
solve the problem of interruptibility that was so tragically 
apparent on 9/11.
    Allocating the D Block to public safety will provide first 
responders with the bandwidth required for the eventual 
migration of mission-critical voice to 700 LTE as envisioned in 
the National Broadband Plan.
    The Public Safety Alliance shares this vision and looks 
forward to a day in the not-too-distant future when public 
safety users can share a Nation-wide network that supports 
voice, video, data on an integrated wireless network and 
abandon the web of disparate legacy networks that impede 
interoperability today.
    The recent FCC white paper on broadband spectrum 
requirements for the public safety is unfortunately not based 
in fact. The main source cited in that paper, NPSTC, has 
already filed notice with the FCC indicating that its data was 
not properly applied and has urged the FCC to use the actual 
data supplied from the only existing public safety broadband 
system, New York City's NYCWIN, which we contend proves the 
need for more spectrum.
    Some have suggested that public safety's objectives are to 
exclusively hold the D Block for our own use. This is simply 
not the case. We have always supported the idea of a public-
private partnership for the use of the D Block.
    Our position is that the best way to accomplish this is 
through competitive, negotiated contracts or more commonly 
referred to as RFPs. This process of using RFPs has been 
endorsed in many of the wireless carriers.
    We feel that such an approach is completely consistent with 
the FCC's broadband plan. We believe that the RFPs should be 
developed in concert with the FCC to ensure consistency and 
competitiveness.
    Like Congress and the FCC, public safety wants to maximize 
and efficiently use its spectrum, but we must be able to manage 
and control the networks so our data traffic has absolute 
priority.
    Our experience with commercial network failures tells us we 
need network control to ensure guaranteed access and security. 
The RFP process will allow carriers, private wireless, data 
providers, new businesses to access this spectrum for common 
good.
    The benefits of this process is that it doesn't exclude 
anyone, allows for competition, provides access for new 
companies seeking to provide wireless commercial broadband data 
service. It also allows for mechanisms not only to share 
development and deployment costs, but it can also provide an 
on-going funding stream to local government for the use of the 
shared spectrum.
    Most importantly, it would provide public safety a highly 
efficient LTE network that public safety controls would control 
and manage, ensuring access for our first responders.
    In closing, the organizations that comprise the Public 
Safety Alliance are unified in the goal of establishing for the 
first time a Nation-wide interoperable mission critical voice 
and data public safety broadband network.
    They are not motivated by profit or politics. Our sole 
motivation is the desire to serve the public we are sworn to 
protect. I thank you for your attention to this important issue 
and I will be happy to answer any questions from the 
subcommittee.
    [The statement of Chief Dowd follows:]
           Prepared Statement of Deputy Chief Charles F. Dowd
                             July 27, 2010
    Good morning Chairwoman Richardson, Ranking Member Rogers, and 
Members of the subcommittee. I am Deputy Chief Charles Dowd, Commanding 
Officer of the New York City Police Department's Communications 
Division. On behalf of Police Commissioner Raymond Kelly, I want to 
thank you for the opportunity to discuss with you today the critical 
need for Congress to act to ensure that public safety agencies will be 
able to communicate effectively, now and in the future.
    I speak today not only for the NYPD and the city of New York, but 
also on behalf of my colleagues in law enforcement who are part of the 
Public Safety Alliance, whose member organizations include the 
International Association of Chiefs of Police, the National Sheriffs' 
Association, the Major Cities Police Chiefs, the Major County Sheriffs' 
Association, the Association of Public Safety Communications Officials, 
and the National Emergency Management Association. We are also 
gratified by the continued support of the Big Seven, and a host of 
other organizations too numerous to mention.
    We are greatly encouraged by the widening support in the House for 
the bi-partisan bill introduced in April by Representatives Peter King 
and Yvette Clarke. This legislation, H.R. 5081, Broadband for First 
Responders Act of 2010, currently co-sponsored by fifty-five Members of 
the House, calls for the re-allocation of the D Block directly to 
public safety.
    We would like to take this opportunity to applaud Senator Joseph 
Lieberman, Senator John McCain, and Senator John D. Rockefeller for 
their recent commitment to support allocation of the 10MHz of spectrum, 
known as the D Block, to public safety for the creation of a Nation-
wide public safety interoperable mobile broadband network, which will 
assist public safety to continue to protect their communities Nation-
wide.
    Senator Lieberman and Senator McCain announced last week the 
introduction of the First Responders Protection Act of 2010 in the U.S. 
Senate. This bill, would not only allocate the D Block to the public 
safety community, but would ensure that funding is available for a 
Nation-wide public safety interoperable mobile broadband network.
    We are also pleased by the recent announcement by Senator 
Rockefeller that he intends to introduce the Public Safety Spectrum and 
Wireless Innovation Act. This legislation would allocate the D Block to 
public safety and provide the funding to create and implement a public 
safety interoperable broadband network.
    The President's recently-issued Executive Memorandum directing a 
study to identify 500 MHz of additional spectrum for broadband services 
over the next 10 years is very encouraging. The plan calls for the 
initial proceeds from the sale of this spectrum to be allocated to the 
build-out of the Nation-wide public safety broadband network. Since the 
D Block accounts for less than 2 percent of the total spectrum to be 
identified we see this as an action that could potentially solve the 
problems of funding and spectrum. Sale of some of the other 500 MHz of 
spectrum would support a public safety build while re-allocating the D 
Block.
    Many of us in public safety have previously stated that broadband 
technology will create a paradigm shift in public safety 
communications. The recent event in Times Square confirms the need for 
information-sharing capabilities that will allow first responders to be 
effective in preventing such an attack. The ability to share 
information in real time on a local, State, and Federal level is 
critical to that goal.
    We have heard recently the allocation of the D Block to public 
safety referred to as a ``gift''. This is an inaccurate 
characterization. It is an investment in our National security that is 
desperately needed. In 1932 the NYPD took an historic step that changed 
forever how the Department responded to emergencies. It invested in its 
first radio communications network. This created a paradigm shift in 
policing. Its importance was such that the NYPD changed the name Patrol 
Car to RMP, or Radio Motor Patrol car, a term still in use some 78 
years later. That technology has remained virtually unchanged for 80 
years. Broadband is the technology that will create the next paradigm 
shift for public safety communications, and ultimately solve the 
problem of interoperability that was so tragically apparent on 
September 11, 2001.
    Allocating the D Block to public safety will provide first 
responders with the bandwidth required for the eventual migration of 
mission-critical voice to 700 LTE as envisioned in the National 
Broadband Plan. The Public Safety Alliance shares this vision and looks 
forward to a day in the not-too-distant future when public safety users 
can share a Nation-wide network that supports voice, video, and data on 
an integrated wireless network, and abandon the web of disparate legacy 
networks that impedes interoperability today. The recent FCC white 
paper on broadband spectrum requirements for public safety is 
unfortunately not based on fact. The main source cited in that paper, 
NPSTC, has already filed with the FCC indicating that its data was not 
properly applied, and has urged the FCC to use the actual data supplied 
to it from the only existing public safety broadband system, New York 
City's NYCWIN, which we contend proves the need for more spectrum.
    Some have suggested that Public Safety's objectives are to 
exclusively hold the D Block for our own use. This is simply not the 
case. We have always supported the idea of a public-private partnership 
for the use of the D Block. Our position is that the best way to 
accomplish this is through competitive negotiated contracts or what is 
more commonly referred to as a Request For Proposal or RFP. This 
process of using RFP's has been endorsed by many of the wireless 
carriers. We feel that such an approach is completely consistent with 
the FCC's broadband plan.
    We believe that these RFP's should be developed in concert with the 
FCC to ensure consistency and competitiveness. Like Congress and the 
FCC, public safety wants to maximize the efficient use of spectrum but 
we must be able to manage and control the network so that our data 
traffic has absolute priority. Our experience with commercial network 
failures tells us we need network control to ensure guaranteed access 
and security. The RFP process will allow all carriers, private wireless 
data providers, and new businesses to access this spectrum for the 
common good. The benefit to this process is that it doesn't exclude 
anyone, allows for competition, and provides access for new companies 
seeking to provide wireless commercial broadband data service. It also 
allows for a mechanism to not only share development and deployment 
cost, but it also can provide an on-going funding stream to local 
government for the use of the shared spectrum. Most importantly, it 
would provide public safety a highly efficient LTE network that public 
safety controls and manages, ensuring access for our first responders.
    The organizations that comprise the Public Safety Alliance are 
unified in the goal of establishing for the first time a Nation-wide 
interoperable mission critical voice and data public safety broadband 
network. They are not motivated by profit or politics. Our sole 
motivation is a desire to serve the public we are sworn to protect. I 
thank you for your attention to this important issue, and I will be 
happy to answer any questions from the subcommittee.

    Ms. Richardson. Thank you for your testimony.
    I now recognize Mr. LeGrande for his statement for 5 
minutes.

   STATEMENT OF ROBERT A. LEGRANDE, II, FOUNDER, THE DIGITAL 
                         DECISION, LLC

    Mr. LeGrande. Well, good morning, Ms. Chairwoman, and the 
Members of the subcommittee. My name is Robert LeGrande, and I 
am a former chief technology officer with the District of 
Columbia government and former program executive for the 
National Capital Region's Interoperability Program.
    I led the district's land mobile radio network upgrade, and 
I also led the development of the Nation's first 700 megahertz 
wireless broadband network for first responders. This pilot 
network is considered as a model for the Nation and in recent 
years has served as a test bed on how broadband applications 
can be shared securely among public safety agencies.
    First, please allow me to acknowledge the outstanding 
efforts of this committee, APCO, the Public Safety Alliance and 
all its member organizations, as well as the FCC. In short, we 
are closer to providing next generation communications to our 
first responders than we have ever been.
    I appreciate the committee's on-going efforts to address 
this critical issue and thank you for the opportunity to 
present my views on the ``Interoperable Emergency 
Communications, Does the National Broadband Plan Meet the Needs 
of the First Responders?''
    Now, given the complexity issue, I will keep my comments 
brief and focused on three key areas. Where the National 
Broadband Plan meets first responders' needs, where the 
National Broadband Plan does not meet the first responders' 
needs and why, and what I recommend we do about it.
    Please reference Figure 1. As the slide indicates, the 
FCC's National Broadband Plan meets the public safety needs in 
far more areas than it does not.
    The FCC has made substantial progress in moving this from a 
fractured and disjointed approach to a National interoperable 
wireless broadband network design that is flexible, 
interoperable, and with some changes referenced later in my 
testimony, it is capable of meeting all of first responders' 
needs today, tomorrow, and into the future.
    The plan successfully addresses the need for technical and 
operational standards, National interoperability, funding, 
public safety devices and most importantly, it gives the day-
to-day control of the network to the people who need it most--
our first responders.
    The plan has successfully influenced commercial carrier's 
National broadband strategies resulting in both AT&T and 
Verizon committing to share network infrastructure with public 
safety.
    This portion of the plan combined with public safety and 
the FCC's committed to long-term evolution technology, sets the 
stage for a highly competitive, low-cost, efficient network 
deployment, while achieving private and commercial network 
redundancies, which is essential to ensuring Nation-wide 
coverage.
    Now, while a National Broadband Plan makes great strides 
towards public safety National interoperable broadband 
communication, it has one key deficiency--sufficient spectrum 
to get the job done. Now, historically, public safety has been 
allocated spectrum in non-contiguous chunks, which has 
contributed to the land mobile radio interoperability problems 
we have today.
    The FCC has repeatedly stated that public safety has 20 to 
25 times more spectrum per user than commercial providers. 
However, 50 megahertz of this calculation is from the 4.9 
gigahertz spectrum which is unusable for wide area broadband 
network use. All but the current 10 megahertz of broadband 
spectrum can be used for broadband network deployment.
    The FCC has itself acknowledged that public safety will 
need additional spectrum in the future and suggested the best 
approach would be to begin with the 10 megahertz of spectrum 
already allocated to public safety use then allocate additional 
spectrum later.
    Now, this sounds familiar and based on past results, that 
is not a good thing. Further, when will we allocate the 
spectrum and how will it be allocated? Will this new spectrum 
cause technical problems and force the commercial industry to 
establish a special separate standard for public safety?
    This is a worst-case scenario in the making as we will be 
repeating the past LMR approach and this will result in 
monopolistic innovation and pricing.
    Public safety needs the D Block spectrum as it will 
stabilize public safety's technological path and will result in 
efficient spectrum uses. We would be able to plan a smooth 
transition from comprehensive voice to comprehensive voice, 
video, and data communication.
    Now, the good news is, is once public safety has 
transitioned all communications to the new network, public 
safety's holdings can be evaluated and determined if unused 
spectrum can be returned for commercial use.
    In the FCC's recently released white paper, ``The Public 
Safety Nationwide Interoperable Broadband Network, A New Model 
for Capacity and Performance and Cost''--I didn't come up with 
the title--the commission concludes that public safety has 
sufficient spectrum based on three emergency incidents.
    Now, given the number of users and uses identified in the 
document, the author is correct. However, based on my 
experience deploying the Nation's first and only public safety 
700 megahertz wireless broadband network here in Washington, 
DC, the scenarios referenced in the document don't accurately 
represent the anticipated number of users or uses.
    Government users will be super-users because they will need 
to consistently optimize government operations to lower costs 
while being driven to improve service delivery to citizens. 
Private wireless broadband networks provide a low-cost 
alternative for this.
    Our next generation networks must have sufficient spectrum 
and be designed to support comprehensive government 
communications for the entire State and local government 
enterprise as well as Federal public safety users.
    The National Broadband Plan seeks to offset the spectrum 
needs by leveraging commercial roaming. Now everyone, everyone, 
supports public safety have interoperability with the 
commercial carriers.
    However, we should never rely on commercial carriers but 
for a last resort. We should not depend on commercial carriers. 
An example with the difficulty we will face can be seen today 
with the recent release of the iPhone 4, network outages due to 
capacity shortages and some technical glitches that caused 
lapses in communications.
    If public safety communications fail people could die. More 
recently, the FCC has been suggesting that auctioning the D 
Block in 2011 with an anticipated deployment date starting in 
2012, will speed network deployments and lower costs.
    This means that public safety should wait for an eventual D 
Block winner to start network deployments in 2 years from now. 
Now, this actually delays the opportunities of network 
deployment starting today and creates a worst case dependency 
on a single D Block commercial carrier. Commercial carriers are 
deploying LTE networks today.
    So this highly competitive network window of opportunity 
will close before the D Block winner can be leveraged. Now, 
this portion in the National Broadband Plan will be great for a 
D Block winner but very bad for public safety.
    So in summary, the FCC has done an outstanding job with the 
public safety portion of the National Broadband Plan. 
Additionally, the commission's recent waiver approvals and 
coordination with NTIA to help fund network deployment starting 
today are great first steps towards getting the ball rolling.
    However, in order to fully meet first responders' 
communications needs the National Broadband Plan needs to do 
these four things. It needs to reallocate the D Block spectrum 
to public safety. It needs a comprehensive long-term spectrum 
plan for public safety.
    It needs a National broadband network deployment plan and 
schedule. Probably as important as the D Block, it needs a 
public safety land mobile radio to broadband migration plan. So 
our first responders they are certainly our last line of 
defense and they deserve the best available tools and resources 
to protect us all.
    Ms. Richardson. Please summarize.
    Mr. LeGrande. Yes, ma'am. I sincerely appreciate the 
opportunity to share my recommendations and the committee's 
continued work on addressing this issue. I am happy to answer 
any of your questions.
    [The statement of Mr. LeGrande follows:]
              Prepared Statement of Robert A. Legrande, II
                             July 27, 2010
    Good afternoon Ms. Chairwoman and Members of the subcommittee. My 
name is Robert LeGrande and I am the former Chief Technology Officer of 
the District of Columbia Government and former Program Executive for 
the National Capitol Region's Interoperability Program. In this role, I 
led the District's Land Mobile Radio (LMR) network upgrade and I also 
led the development of the Nation's first city-wide 700 MHz broadband 
wireless network for First Responders. This pilot network is considered 
a model for the Nation (http://www.ntia.doc.gov/ntiahome/press/2007/
WARN_060807.html) and in recent years served as a test bed for how 
broadband applications can be shared securely among Public Safety 
Agencies.
    I resigned from the District of Columbia in 2007 and formed 
LeGrande Technical and Social Services, LLC, which has been recently 
renamed to ``The Digital Decision''. My firm leverages lessons learned 
in the District's successful LMR and 700MHz wireless broadband network 
deployments to help other State and local governments prepare for and 
deploy Public Safety communications networks.
    First, please allow me to acknowledge the outstanding efforts of 
this committee, APCO, the Public Safety Alliance (PSA) and all member 
organizations, as well as FCC. In short, we are closer to providing 
next generation communications to our First Responders than we have 
ever been.
    I appreciate the committee's on-going efforts to address this 
critical issue and thank you for the opportunity to present my views on 
``Interoperable Emergency Communications: Does the National Broadband 
Plan meet the needs of First Responders?'' Given the complexity of this 
issue and time allotted, I will keep my comments brief and focused on 
three key areas: Where the National Broadband Plan (NBP) meets First 
Responder's needs; Where the NBP does not meet First Responder's needs 
and why; and, What I recommend we do about it. Please reference Figure 
I below:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Where the National Broadband Plan (NBP) meets First Responder's Needs
    As the slide indicates the FCC's National Broadband plan meets 
Public Safety's needs in far more areas than it does not. The FCC has 
made substantial progress in moving us from a fractured and disjointed 
approach to a National interoperable wireless broadband network design 
that is flexible, interoperable, and with some changes suggested later 
in my testimony, is capable of meeting all First Responder needs today, 
tomorrow, and well into the future.
    The plan successfully addresses the need for technical and 
operational standards, National interoperability, funding, Public 
Safety broadband devices and most importantly, it gives day-to-day 
control of the network to the people who need it most; our First 
Responders. The plan has successfully influenced commercial carrier 
National broadband strategies resulting in both AT&T and Verizon 
wireless committing to share network infrastructure with Public Safety. 
This portion of the plan combined with PS' and the FCC's commitment to 
Long Term Evolution (LTE) 4G technology sets the stage for a highly 
competitive, low cost, efficient network deployments; while achieving 
private and commercial network redundancy which is essential to 
ensuring Nation-wide coverage.
Where the NBP Does Not Meet First Responder's Needs and Why
    While the NBP makes great strides towards PS Nation-wide 
interoperable broadband communications, it has one key deficiency . . . 
sufficient spectrum to get the job done. Historically PS has been 
allocated spectrum in non-contiguous chunks which has contributed to 
the Land Mobile Radio (LMR) interoperability problems we have today. 
The FCC has repeatedly stated that PS has 20 to 25 times more spectrum 
per user than commercial providers.
    However, 50MHz of this calculation is from 4.9G spectrum which is 
unusable for wide-area broadband network use and all but the current 
10MHz of broadband spectrum can be used for broadband network 
deployment.
    The FCC has acknowledged that PS will need additional spectrum in 
the future and suggests that the best approach would be to begin with 
10MHz of spectrum already allocated for PS broadband use, then allocate 
additional spectrum later. This sounds familiar and based on past 
results would just exacerbate the interoperability problems we already 
have . . . Further, what spectrum would we allocate and when? Will this 
new spectrum cause technical problems and force the commercial industry 
to establish a special separate standard for PS? This is a worst case 
scenario in the making as we will be repeating our past LMR approach 
and this will result in monopolistic innovation and pricing.
    PS needs the 700MHz D Block spectrum as it will stabilize PS' 
technological path and will result in efficient spectrum use as we will 
be able to plan a smooth transition to comprehensive voice, video, and 
data communications. The good news is that once PS has transitioned all 
communications to our new network of networks, PS' spectrum holdings 
can be evaluated to determine if un-used spectrum can be returned for 
commercial use.
    In the FCC's recently released white paper; ``The Public Safety 
Nationwide Interoperable Broadband Network: A New Model for Capacity, 
Performance, and Cost'' the Commission concludes that PS has sufficient 
spectrum based on three emergency incidents. Given the number of users 
and uses identified in the document, the author is correct. However, 
based on my experience deploying the Nation's first and only PS 700MHz 
wireless broadband network here in Washington, DC, the scenarios 
referenced in the document do not accurately represent the anticipated 
number of network users or uses. Government users will be ``super-
users'' because they need to consistently optimize Government 
operations to lower costs while being driven to improve service 
delivery to citizens. Private wireless broadband networks provide a 
low-cost alternative to achieve this result. Our next generation 
networks must have sufficient spectrum and be designed to support 
comprehensive Government communications for the entire State and Local 
Government Enterprise, as well as Federal PS users.
    The NBP seeks to offset PS spectrum needs by leveraging commercial 
roaming. Everyone supports PS having interoperability with commercial 
carriers; however PS should rely on commercial carriers as a last 
resort and not have to depend on them for everyday mission-critical 
communications. An example of the difficulty we will face can be seen 
today with the recent release of the IPHONE 4.
    Network outages due to capacity shortages and some technical 
glitches have been causing lapses in communications. If PS 
communications fail, people could die. More recently the FCC has been 
suggesting that auctioning the D Block in 2011 with an anticipated 
deployment date starting in 2012 will speed network deployments and 
lower costs. This means that PS should wait for an eventual D Block 
winner to start network deployments 2 years from now. This actually 
delays the opportunities to deploy networks starting today and creates 
a ``worst case'' dependency on a single D Block commercial carrier. 
Commercial carriers are deploying LTE networks now. This highly-
competitive network deployment window of opportunity will close before 
a D Block winner can be fully leveraged. This portion of the NBP would 
be great for the D Block winner but very bad for PS.
What I Recommend We Do About It
    In summary, the FCC has done an outstanding job developing the PS 
portion of the NBP. Additionally, the Commission's recent waiver 
approvals and coordination with NTIA to help fund network deployments 
starting today are great first steps that will get the ball rolling. 
However, in order to fully meet First Responder's communications needs, 
the NBP needs:
    (1) To re-allocate the D Block to PS;
    (2) A Comprehensive, long-term spectrum plan for PS;
    (3) A National network deployment plan and schedule; and,
    (4) A PS LMR to BB communications migration plan.
    Our First Responders are also our last line of defense and they 
deserve to have the best available tools and resources to protect us. 
Please support Congressman King's, Congresswoman Clarke's and many 
others efforts we get this done right once and for all.
    I sincerely appreciate the opportunity to share my recommendations 
and the committee's continued work on addressing this issue. I'm happy 
to answer any questions you may have. Thank you.

    Ms. Richardson. Thank you for your testimony.
    I now recognize Mr. Graham to summarize his statement for 5 
minutes.

  STATEMENT OF ERIC GRAHAM, RURAL CELLULAR ASSOCIATION, VICE 
  PRESIDENT FOR STRATEGIC AND GOVERNMENT RELATIONS, CELLULAR 
                          SOUTH, INC.

    Mr. Graham. Chairwoman Richardson, Ranking Member Rogers, 
thank you for the opportunity to be here today on behalf of 
Cellular South, the Nation's largest privately held wireless 
carrier and as a member of the Rural Cellular Association, 
whose nearly 90 carrier members provide wireless service in 
rural, remote, and hard-to-reach areas.
    Cellular South and RCA believe the FCC's National Broadband 
Plan accurately identified three critical elements to 
successful deployment and operation of a wireless network, 
spectrum, funding, and interoperable equipment.
    First, a service provider needs appropriate spectrum. Seven 
hundred megahertz is ideal for rural areas needing vast 
geographic coverage with fewer cell sites and, therefore, a 
lower cost of construction.
    Next, a service provider must have sufficient funding for a 
network with ample coverage and capacity. The clearest path to 
funding a public safety network is by utilizing the proceeds 
from the commercial auction of the 700 megahertz D Block.
    The CBO estimates that a D Block auction would raise 
between $2 billion and $3 billion but the actual proceeds could 
be much higher. The last 700 megahertz auction nearly doubled 
its Congressional estimate.
    Given the scarcity of available low band spectrum for 
commercial providers, it is entirely possible, if not likely, 
that a D Block auction would exceed current Congressional 
estimates. However, the most critical element for a successful 
wireless network is interoperability.
    This is absolutely necessary because a service provider 
must have access to interoperable equipment and devices that 
allow users to access other networks operating on the same 
technology.
    Devices for the cellular, AWS, and PCS spectrum bands were 
built to be interoperable across all frequencies within those 
bands. This allows seamless roaming on other networks that 
utilize the same technology.
    When the FCC awarded the first cellular licenses in the 850 
megahertz band, the commission included a requirement that all 
850 megahertz devices must work on all 850 megahertz networks.
    The commission was concerned that incumbents would use 
their market power to demand equipment that would work on their 
spectrum but not the spectrum of their competitor.
    Fast forward to 2010, and the harm that the FCC sought to 
avoid almost 30 years ago is now becoming a reality. Today, 
without a rule requiring interoperability, the largest two 
carriers are using their market power to demand 700 megahertz 
equipment that works only on their spectrum and not on the 
spectrum of their competitors.
    It is imperative that Congress or the FCC requires 
interoperability before the end of this year to prevent non-
interoperable devices from getting into the hands of consumers 
and therefore never being interoperable.
    For commercial carriers, this means customers will not be 
able to roam on what should be compatible networks. That is 
wrong. But for public safety, the ramifications could be 
catastrophic.
    If a public safety 700 megahertz facility is knocked off 
the air but a commercial 700 megahertz in the same area remains 
operational, public safety devices will not work on the 
commercial 700 megahertz network. Requiring interoperability is 
the only way to ensure a redundant Nation-wide network for 
public safety.
    Furthermore, interoperability will drive down the cost of 
devices for public safety. Volunteer fire fighters and 
sheriffs' departments in rural areas have historically been at 
an equipment disadvantage as compared to emergency responders 
in metropolitan areas.
    This does not have to be the case with next generation 
public safety networks if Congress or the FCC requires 
interoperability across the 700 megahertz spectrum.
    Let me be clear. Cellular South is a strong supporter of 
public safety and emergency responders, the most prominent 
example being our efforts during and after Hurricane Katrina. 
During Hurricane Katrina, our network along the Gulf Coast 
continued to operate even at the height of the storm.
    Though some portions of our network temporarily lost 
service and a total of four towers were lost, it was 60 percent 
restored the day after the hurricane.
    FEMA noted 5 days after the storm that Cellular South was 
the only operational cellular network on the Mississippi Gulf 
Coast. Most importantly, the emergency communications director 
for one of the coastal counties relied on his Cellular South 
phone as the only means of communication to coordinate the 
repair of his county's 800 megahertz wireless system used by 
his county's first responders.
    Our experience during Hurricane Katrina is a testament to 
the role that rural and regional carriers can play in disaster 
response and recovery.
    In conclusion, Cellular South and RCA strongly support 
Congressional and FCC action to ensure the deployment of an 
interoperable, Nation-wide wireless broadband network for 
public safety users.
    Requiring interoperability across the 700 megahertz 
networks is the only way to ensure network access and to 
significantly decrease the cost of devices, both for public 
safety as well as consumers.
    Finally, RCA members continue to support an auction of the 
D Block as the surest way to provide public safety users with 
the lowest-cost, widest coverage, highest quality network 
possible.
    Thank you, again, for the opportunity to participate in 
today's hearing, and I look forward to answering your 
questions.
    [The statement of Mr. Graham follows:]
                   Prepared Statement of Eric Graham
                             July 27, 2010
    Chairman Thompson, Chairwoman Richardson, Ranking Member King, 
Ranking Member Rogers and Members of the subcommittee, thank you for 
the opportunity to be here today. My name is Eric Graham, and I am Vice 
President for Strategic and Government Relations for Cellular South, 
Inc. Cellular South is the Nation's largest privately-held wireless 
carrier by number of subscribers, providing service in all of 
Mississippi as well as portions of Tennessee, Alabama, and Florida.
    I testify today as a member of the Rural Cellular Association 
(RCA). RCA's nearly 90 carrier members provide wireless service in 
regional, remote, and hard-to-reach areas, with collective FCC licenses 
covering over 80 percent of the Nation's geography. RCA members are 
community-oriented, community-based, and supportive of those that 
protect our communities.
    Cellular South is a typical RCA member in that the area we serve is 
overwhelmingly rural. Our participation in the Federal universal 
service program has enabled us to build out high-quality mobile 
wireless services to most of the area where we are licensed to serve. 
Additionally, we have deployed high-speed data services to large 
portions of our service area. In many of these areas, National carriers 
have not constructed networks of comparable reach and quality.
    In addition to building out a commercial mobile wireless network, 
our company is a strong supporter of public safety and emergency 
responders. For example, we received a special commendation from the 
Mississippi State legislature for our outstanding work in restoring 
service to the Gulf Coast following Hurricane Katrina. Even at the 
height of the storm, our network never completely went down and our 
entire network was fully restored within 11 days after the storm made 
landfall. Furthermore, the State of Mississippi has awarded Cellular 
South the State contract for wireless services, which is additional 
proof of our coverage and service quality.
    Other RCA members support public safety in similar ways. Some offer 
discounted service, discounted and donated equipment such as handsets 
and air cards, and free technical support, enabling rural public safety 
officers to reap the benefits of mobile high-speed data services today 
and to serve our communities.
    I appreciate the opportunity to be here today, and to offer 
testimony addressing the realities of network operation and build out, 
the unique benefits of partnering with regional and rural commercial 
providers, and the need for interoperability across the entire 700 MHz 
band to maximize public safety's communications capabilities. Cellular 
South and the RCA share the goal of ensuring that public safety enjoys 
the benefits of new technologies and choice, while driving their costs 
down to commercial rates. As currently contemplated, the partnership 
between public safety and commercial carriers will mean better 
services, greater spectrum efficiency, and interoperability across 
multiple networks which will allow public safety to focus its resources 
on saving lives.
    In considering mobile high-speed data networks, there are three 
critical elements to successful deployment and operation. First, a 
service provider needs spectrum with the appropriate characteristics 
and capacity, such as 700 MHz spectrum. Next a service provider must 
have sufficient funding to construct a network with ample coverage and 
capacity to make it useful for users. Finally, and most important, a 
service provider must have access to interoperable equipment, and 
devices must be available so that users can access other networks that 
use the same technology. We believe that the FCC's National Broadband 
Plan accurately identified these three critical elements, and the RCA 
supports its Public Safety recommendations.
                         spectrum availability
    Radio waves in the 700 MHz spectrum band travel long distances and 
are able to pass through forests, walls, buildings, and other 
obstructions with greater ease than higher-frequency airwaves, such as 
spectrum above 1 GHz (i.e. 1,000 MHz). These characteristics make the 
band well-suited for vast geographic coverage with fewer cell sites, 
and therefore, at a lower cost.
    Because the D Block and the existing 700 MHz public safety spectrum 
are adjacent to other 700 MHz spectrum being used by commercial 
carriers, they share the same propagation characteristics as the 
commercial 700 MHz spectrum. Therefore, it is technically feasible for 
carriers and public safety to use common towers and share other network 
facilities because the network designs for public safety and commercial 
networks can be the same. Network sharing on adjacent frequencies not 
only enhances public safety, but it also greatly improves efficiencies 
that will lower the cost of building and maintaining public safety 
networks.
                            interoperability
    The most critical factor to ensure the viability and success of a 
Nation-wide public safety network is interoperability. Unfortunately, 
without FCC or Congressional action, interoperability throughout the 
700 MHz spectrum is unlikely to be achieved.
    There are currently three major spectrum bands available for mobile 
high-speed data services (Cellular, AWS, and PCS) and a fourth (700 
MHz) which will be available as early as the end of this year. As 
wireless technologies have rapidly evolved, devices in each of the 
Cellular, AWS, and PCS bands were built with the capability to operate 
on all frequencies within each band. This allows seamless roaming 
across the frequency bands on other networks that utilize the same 
technology.
    In fact, when the FCC awarded the first cellular licenses in the 
850 MHz band, the Commission included a requirement that all devices 
must work on all 850 MHz cellular networks. This was necessary because 
one block of spectrum was set aside for incumbent carriers in each 
market, and there was a concern that incumbents might have sufficient 
market power to demand equipment that would work on its licensed 
spectrum but not on the spectrum of its competitor.
    Fast forward to 2010. Today, the largest carriers are developing 
devices that only work on certain portions of the 700 MHz band. This 
limits consumers' ability to seamlessly roam on otherwise compatible 
networks, and their ability to change providers. This also prohibits 
public safety users from taking advantage of these economies of scale 
to acquire reasonably-priced devices for their networks. The harm that 
the FCC sought to avoid almost 30 years ago is becoming a reality 
today.
    While there are currently three different technologies used for 
wireless communications, CDMA, GSM, and iDEN, the emerging consensus 
from both public safety and commercial carriers is that 4G technologies 
deployed in the 700 MHz band will use Long Term Evolution (LTE) 
technology. The FCC in the National Broadband Plan recommended 
designating LTE as the standard for the public safety network, a 
recommendation supported by both Cellular South and RCA.
    As we move into a 4G world, both public safety users and commercial 
users would greatly benefit from having access to an interoperable, 
technologically-compatible LTE network. First responders would have 
universal access to their own LTE network whenever and wherever an 
emergency may occur and, where the networks overlap, public safety 
users would have the ability to roam on commercial 700 MHz networks to 
provide additional capacity. In areas without a public safety network, 
emergency responders' devices would work in any place where any 
commercial carrier is providing coverage on 700 MHz spectrum.
    Unless things change, interoperability on 700 MHz LTE networks will 
not be possible because the current 700 MHz Band Classes fragment the 
700 MHz spectrum.\1\ Additionally, the developing LTE device and 
equipment ecosystem is being designed to prevent interoperability and 
seamless roaming across all frequency blocks.
---------------------------------------------------------------------------
    \1\ The 700 MHz Band Classes should not be confused with the 700 
MHz Band Plan. The Band Classes are groupings of spectrum which are 
approved by an international standards body--in this case, the 3rd 
Generation Partnership Project (3GPP)--to facilitate development of 
network equipment and end-user devices.
---------------------------------------------------------------------------
    The plan currently being used for building out the 700 MHz consists 
of four bands:
  <bullet> Band Class 12, which includes the lower A, B, and C Blocks 
        only;
  <bullet> Band Class 13, which includes the upper C Block only;
  <bullet> Band Class 14, which includes the D Block and the public 
        safety broadband spectrum only;
  <bullet> Band Class 17, which includes the lower B and C Blocks only.
    When the band classes are compared to the winners of the various 
blocks of spectrum in the 700 MHz band, the interoperability problems 
become clearer. With a Nation-wide license of the upper C Block (less 
Alaska), Verizon Wireless is the sole carrier operating within Band 
Class 13. AT&T holds the majority of licenses for the lower B and C 
Blocks, therefore possessing the vast majority of Band Class 17. These 
carriers plan LTE deployments in the 700 MHz band as early as this 
fall, but the devices being developed for their networks do not include 
public safety's Band Class 14. As a result, public safety will not have 
the ability to be interoperable with these carriers' LTE networks.
    For commercial carriers operating in Band Class 12, this means 
customers will not be able to roam on otherwise compatible networks 
when they are outside of built-out coverage of their specific spectrum 
block. That is wrong, and it is a disservice to all wireless consumers. 
But for public safety, this situation could be catastrophic.
    For example, if a public safety 700 MHz facility is knocked off the 
air by a natural or man-made disaster, but a commercial 700 MHz network 
remains operational, public safety devices will not work on those 
commercial networks because of the balkanization of 700 MHz spectrum. 
Since LTE devices will bring unprecedented capabilities to first 
responders, this means they could lose their most effective 
communications tools in the very situations where they are needed the 
most. The inability for public safety users to access commercial 700 
MHz networks is a preventable problem that can be solved by simply 
requiring all 700 MHz devices to work on technologically-compatible 700 
MHz networks.
    In addition, without required interoperability throughout all 
paired 700 MHz spectrum, neither public safety nor rural commercial 
carriers will be able to leverage the economies of scale necessary to 
secure equipment at competitive prices. If 700 MHz devices were 
required to be built to work across all paired spectrum, public safety 
users would have the opportunity to acquire devices something much 
closer to, if not equaling, consumer prices.
    As referenced in the FCC's technical paper on developing the public 
safety network, ``This lack of scope is compounded if the public safety 
entity is operating on an LTE network that utilizes spectrum in a band 
class assigned exclusively for the public safety community. This would 
be the case if the D Block was reallocated to public safety. In this 
situation, there would be no commercial service provider in LTE Band 
Class 14 in the 700 MHz band. While technically such a system could be 
deployed and supported, the costs of the network equipment, most 
notably the devices, would increase substantially.''\2\
---------------------------------------------------------------------------
    \2\ Federal Communications Commission. ``A Broadband Network Cost 
Model: A Basis for Public Funding Essential to Bringing Nationwide 
Interoperable Communications to America's First Responders,'' OBI 
Technical Paper No. 2. May 2010, 5.
---------------------------------------------------------------------------
    Requiring interoperability across all paired bands of 700 MHz 
spectrum is the only way to ensure a Nation-wide network for public 
safety. To build a public safety network, simply partnering with AT&T 
or Verizon will not provide public safety with the necessary coverage 
throughout the country, and rural communities will suffer. Even if 
public safety partnered with AT&T or Verizon, chipsets must be 
developed for the public safety network operating in Band Class 14. 
These chipsets must then be put in equipment that also has chipsets for 
either Band Class 13 or Band Class 17. Additionally, the public safety 
network will be limited to the speed and areas of deployment for the 
National carrier. And as many consumers with iconic devices have 
learned, National carriers do not always build their networks with 
sufficient capacity, let alone reliability.
    If the LTE ecosystem is allowed to progress in a manner that 
prevents a partnership between the public safety network and rural 
carriers, the first responders in rural areas likely will not be able 
to utilize the Nation-wide broadband public safety network until the 
largest carriers deploy 4G LTE service in their areas and certainly 
will not be able to take advantage of rural carriers' excess capacity 
in times of emergency. Recent statements by National carriers support 
the broad consensus that these carriers will begin their 4G deployments 
by overlaying their current 3G service areas, and likely not deploy 
services in rural America until long in the future. Conversely, 
Cellular South, like other winners of 700 MHz lower A Block spectrum, 
intends to deploy 4G LTE services in rural America as quickly as 
possible.
    Indeed, Upper 700 MHz licensees have an incentive to focus on 
densely-populated areas at the expense of rural areas. When the various 
blocks of 700 MHz were auctioned, different build-out requirements were 
implemented with the different blocks. For example, the upper C Block 
spectrum requires build-out within a specific time frame of certain 
population percentages, while the lower A Block requires certain 
geographic percentages of build-out. Logically, a carrier needing to 
reach a higher percentage of the population will deploy services first 
in the most densely-populated urban areas. It is virtually guaranteed 
that population-based build-out requirements will be satisfied long 
before the largest carriers' network deployment reaches the rural areas 
of the country. Lower A Block licensees do not have this luxury, and 
beyond already catering more specifically to rural America, they are 
required to cover larger percentages of geography including remote and 
sparsely populated areas.
    The recent mining tragedy in West Virginia made it clear that our 
Nation's first responders require the ability to access cutting edge 
communications even in our Nation's remote rural areas. Volunteer 
firefighters and sheriffs' departments in rural areas are typically at 
an equipment disadvantage when compared to their counterparts in 
metropolitan areas. This does not have to be the case with next-
generation public safety networks. If Congress or the FCC requires 
interoperability across the 700 MHz spectrum, the public safety network 
can have a build-out that is concurrent with commercial build-outs 
throughout the Nation and all first responders will have access to a 
robust network with sufficient overflow capacity to cover any need.
                                funding
    The best way to fund a public safety network is a commercial 
auction of the D Block. An auction, which the FCC can conduct quickly 
and efficiently, is the only proven means of maximizing the revenues 
needed to build a high-quality public safety network. The Congressional 
Budget Office (CBO) estimates that a D Block auction would raise 
between $2 billion and $3 billion if auctioned to commercial carriers. 
The actual auction proceeds could be much higher. In the last 700 MHz 
auction (Auction 73) congressional estimates expected the auction to 
bring revenues of $10.182 billion, but the net winning bids actually 
totaled $18.96 billion.
    Given the scarcity of available low-band spectrum (e.g., 700 MHz) 
for competitors of the ``Big Two'' it is entirely possible--if not 
likely--that current CBO estimates would be exceeded. A near-term 
auction would provide immediate capital to be used as a timely down 
payment on the deployment of the public safety network. As FCC Public 
Safety and Homeland Security Bureau Chief Admiral James Barnett, Jr. 
has previously testified, allocating the D Block to public safety would 
not only ``nearly destroy the commercial market for equipment and 
devices for public safety[,] isolating public safety on a technological 
island the way they are today'' but would also ``vastly increase the 
cost of building the network for public safety by billions of 
dollars.''\3\
---------------------------------------------------------------------------
    \3\ Barnett, Jr., Admiral James Arden. Quote from: U.S. Congress. 
House Energy and Commerce Subcommittee on Communications, Technology 
and the Internet. ``Legislative Hearing on a Discussion Draft to 
Provide Funding for the Construction and Maintenance of a Nationwide, 
Interoperable Public Safety Broadband Network and for Other Purposes 
and on H.R. 4829, the Next Generation 911 Preservation Act of 2010.'' 
(6/17/10), available at http://energycommerce.house.gov/documents/
20100617/transcript.06.17.2010.cti.pdf, 47.
---------------------------------------------------------------------------
    In order to leverage the Nation-wide commercial build out of LTE at 
700 MHz, public safety must be prepared to build-out the network at the 
same time as commercial carriers deploy service. Cellular South and RCA 
welcome the FCC's commitment to make an additional 500 MHz of spectrum 
available for mobile high-speed data services, and recognize that the 
auction of this additional spectrum may also be a significant source of 
funding for the public safety network. Despite the revenue generated 
from future auctions, if funding is not available for the public safety 
network at the time of commercial build out (which includes planned LTE 
coverage for 95 percent of the United States population by 2015)\4\ we 
will lose a clear path to delivering a network for our Nation's first 
responders. The FCC estimates that building a separate public safety 
network, including the 44,800 sites necessary for adequate coverage, 
would cost an additional $9.4 billion compared to leveraging an 
incentive-based partnership. Time is of the essence if the public 
safety network is to leverage a parallel commercial build out.
---------------------------------------------------------------------------
    \4\ OBI Technical Paper No. 2, 2.
---------------------------------------------------------------------------
    While the funding that would be provided from a commercial D Block 
auction is needed immediately, the additional capacity of reallocating 
the D Block to public safety is not only excessive today but 
unnecessary going forward. The claims that it is necessary to 
reallocate the D Block to public safety in order to meet capacity needs 
are based on the outdated deployment practices of first and second 
generation technologies that are impractical for use with 4G 
technologies.
    As the Coalition for 4G in America has pointed out, deploying a LTE 
public safety network using a low-site, cellular-like approach with the 
existing 25 MHz currently allocated to public safety would provide 
greater system capacity with half the amount of spectrum as compared to 
utilizing outdated high-site deployments on a potential 210 MHz of 
spectrum where the D Block is reallocated to public safety.\5\ Beyond 
being more spectrally efficient, the cellular-like deployment will 
provide more robust signal coverage and network redundancy while 
avoiding potential problems with issues such as interference. RCA 
believes the current allocation provides more than adequate capacity 
Nation-wide--and certainly in rural America.
---------------------------------------------------------------------------
    \5\ Doug Hyslop & Chris Helzer, Wireless Strategy 700 MHz Upper 
Band Analysis (July 19, 2010), available in Coalition for 4G in 
America, Written Ex Parte Presentation, WT Docket No. 06-150; PS Docket 
No. 06-229; GN Docket No. 09-51 (July 19, 2010), available at http://
fjallfoss.fcc.gov/ecfs/document/view?id=7020549812.
---------------------------------------------------------------------------
                               conclusion
    Cellular South and RCA members strongly support both Congressional 
and FCC action to ensure the timely deployment of a robust Nation-wide 
interoperable wireless broadband public safety network. To leverage the 
advancements and deployments of commercial wireless carriers in 4G LTE 
technologies, the success of the public safety network depends on 
requiring interoperability throughout all paired 700 MHz spectrum. 
Congress and the FCC must take action to ensure interoperability in 
order to facilitate seamless roaming on 700 MHz networks and to 
significantly decrease the cost of public safety devices. RCA members 
continue to support an auction of the D Block and dedication of the 
auction proceeds to building the public safety network.
    Thank you again for the opportunity to participate in today's 
hearing, and I welcome any questions. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Ms. Richardson. I thank all the witnesses for their 
testimony. I will remind each Member that he or she will have 5 
minutes to question the panel. I will now recognize myself for 
questions. First of all, Mr. Graham, did I understand you then 
to say that you don't support the direct allocation to public 
safety, only the auction option?
    Mr. Graham. That is correct.
    Ms. Richardson. Okay.
    Mr. Graham. We do not support a direct allocation of the D 
Block to public safety.
    Ms. Richardson. Also, Mr. Graham, did I understand 
correctly? I looked back in your testimony the remarks that we 
had. Did--I thought I heard you say that you would expect that 
the auction would exceed the initial estimate. Did you mean 
that in terms of price?
    Mr. Graham. Yes. I believe the total receipts from a D 
Block auction would exceed the Congressional estimates.
    Ms. Richardson. So why do you think it didn't the first 
time it was initially attempted?
    Mr. Graham. I think there were two main problems with the D 
Block in Auction 73, one being uncertainty of public safety's 
requirements for the eventual D Block winner, the greatest 
being the large size of the D Block license.
    It was a Nation-wide license. With a Nation-wide license 
the reality is there are only one, two, maybe three potential 
bidders for a license of that size. If recollection serves, the 
reserve price was approximately $1.3 billion just for the 
license. That was before any build-out. Other individual 
bidders who had been interested in regional areas were 
effectively locked out because they could not bid on a National 
license.
    Ms. Richardson. Okay.
    Let us see, Chief Dowd, I believe, in your testimony on the 
last page, you referenced that the RFP process would allow 
carriers, private wireless data providers, et cetera, to 
participate and you laid out some of the benefits. What I 
didn't follow was how you viewed that to be able to assist in 
an on-going funding stream?
    Chief Dowd. Well, our position on it is simply this, is 
that if you had public-private partnerships, you would be 
allowing for secondary use of commercial services on the public 
safety network but still be in complete control of the network. 
So that would allow you to--so for example, I will give you one 
quick example.
    Public utilities have already expressed interest in the 
potential of utilizing on a public safety, a hardened public 
safety network and to pay for that service to, you know, a 
State government or local government that builds that network.
    That does a couple things for you. It allows them to stay 
up and running, you know, in emergencies and to not have to 
compete on commercial networks which they typically do now like 
we all do.
    So, you know, it is a very attractive model from the 
perspective of, you know, there are already many entities out 
there that are looking at this, you know, carriers, potential 
users, that would create or generate a funding stream for that 
municipality on that spectrum. In other words, you are 
leveraging enterprising the value of that spectrum on a second, 
third, or fourth tier priority that would allow for that 
dynamic use of the spectrum.
    Ms. Richardson. I am concerned----
    Chief Dowd. The other thing it could do if I could really 
quick is that, you know, for smaller carriers that are 
concerned about access to spectrum, this is a way of getting 
access to that spectrum without having to bid and pay 
expensive, as Eric pointed out, very high rates to access or to 
buy that spectrum. You would----
    Ms. Richardson. What concerns--excuse me, I am sorry.
    Chief Dowd. Sure. It is all right.
    Ms. Richardson. I have only got 1 minute and 40 seconds. 
What concerns would you have with the risk and the 
vulnerability of having all of the local governments, you know, 
the whole municipality dependent upon the system?
    Chief Dowd. Well, again, the uniqueness of LTE technology 
is that if you are in control of the network, you know, or, you 
know, you have got the joystick as Jeff Johnson mentioned 
earlier is that you are in control and set the priorities.
    So first responders would always have a preemptive priority 
on the network, and you would allow for secondary use on lower 
priority levels. So you would actually you know push them back 
or slow them down on their throughput and still allow for the 
first responders to get immediate access to the spectrum.
    Ms. Richardson. But what were to happen if the network were 
to be compromised is my question? So for example, what if all 
of a sudden, you know, public safety is blocked out, public 
works is blocked out. That could be very detrimental to 
municipal government. I served on the city council for----
    Chief Dowd. Oh, I apologize. Are we talking about 
commercial networks or public safety networks?
    Ms. Richardson. I am talking about if there were a public 
safety network and if all of public safety was on it as well as 
local governments, municipalities, public works, et cetera as 
you are suggesting----
    Chief Dowd. Yes.
    Ms. Richardson [continuing]. My question is what do you 
think, in terms of the cyber security implications or if the 
system were to go down, that your whole--everyone would be 
dependent on that?
    Chief Dowd. Well again, and why we think the original 
auction failed is we would build this with redundancy in it and 
survivability in it that would keep that system up and running.
    Our contention is that the way we build public safety 
networks is, is that if our network went down, then everybody 
else's network is already down. So, you know, we would be the 
last network to go down.
    Ms. Richardson. Well, as I think I have said initially in 
my comments, you know, I am a very big supporter, and you have 
a fan here so that is not the issue.
    But I would caution that we probably need to go back and 
delve into that further because what I have found, as I said in 
my time of being here, is that if something can happen it in 
fact will happen.
    I think although we would want to build a system that we 
would think would have complete redundancy and no issues, to 
say that no issues would happen I don't think is probably 
realistic in light of some of the things that have already 
occurred.
    So the question should still probably be considered of 
being very careful when you have everything tied up into one 
system. I am not saying--I am not opposed. I am just saying 
that is an important thing to explore.
    Mr. Rogers for 5 minutes.
    Mr. Rogers. Thank you, ma'am. Mr. Graham, I didn't agree 
with much you said, but I liked the way you said it.
    [Laughter.]
    Mr. Rogers. We Southerners have to stick together. I do 
want to ask you though do you believe that the reallocation of 
D Block to public safety would harm market competition for 
devices or increase the costs?
    Mr. Graham. Yes, I do believe that.
    Mr. Rogers. Okay. If so, would you support research and 
development program for these devices to overcome that?
    Mr. Graham. I would support that if it would lower the 
cost. But unfortunately even that won't lower the cost as much 
as the scale of mass-produced consumer devices.
    Mr. Rogers. I want to ask--I represent a large rural 
Congressional district and the county sheriffs in my district 
support this reallocation of D Block. Why should I not heed 
their opinions aside from the fact they vote?
    Mr. Graham. Well, I have spent a little bit of time in your 
district at Pop's Charburgers in Heflin----
    Mr. Rogers. Yes.
    Mr. Graham [continuing]. And popping golf balls at The 
Meadows in Sylacauga. But I think they viewed the reallocation 
of the D Block as making a bad situation better. But I am not 
sure that they are fully aware of all the capabilities that 
could be available if the D Block went to commercial users. I 
don't know what they are paying for their devices right now.
    But I can tell you that we have commercial devices in our 
stores today that we sell, at least one that is a military spec 
device with push-to-talk one-to-one or one-to-many that comes 
in at consumer pricing. Contractors buy this because it is hard 
to damage this phone. That phone comes in at consumer prices. 
It is not at $1,000, $2,000 like they typically pay.
    I think if they were fully aware of the capabilities they 
would have under a system where the D Block went to a 
commercial user, particularly a local provider and, to be 
honest, Cellular South would bid for the spectrum in your area. 
That is where we are moving. They would have greater 
capabilities much sooner than by reallocating this D Block to 
public safety.
    I would venture to say, and I don't think it is much of a 
stretch, that in most of the areas of your district, volunteer 
fire fighters and sheriff's departments could be up sooner on a 
commercial D Block sharing the commercial D Block than they 
would ever be if the D Block was reallocated to public safety 
and public safety had to build out those rural areas.
    Mr. Rogers. Chief Johnson, can you tell me why D Block is 
so important to public safety and why other spectrums that 
might become available in the future won't work?
    Chief Johnson. Yes, Congressman. Yes, Congressman. The D 
Block's important because it is a spectrum that is contiguous 
to 10 megahertz of spectrum already licensed to the public 
safety community.
    What that will allow is it will allow adequate throughput 
for things like video, for mobile wireless license plate 
readers, and all the various things from controlling robots 
that disarm bombs to all the other needs that we have, the 
efficiency that happens at the local level when, for example, I 
can see traffic cameras from my command vehicle.
    I can send one unit instead of three to a freeway accident, 
and we can evaluate the accident remotely. These things all 
save us money.
    I think one of the other big things that happen, we just 
don't talk about it enough, is what happens when you identify 
an adequate swath of spectrum, it will actually bring the 
market, as Mr. Graham said. I actually agree with him, when you 
get everybody using one technology, then you are going to bring 
down the cost of the devices.
    By giving us enough spectrum, not only today but for the 
future, it will draw the users to that space and it will draw 
the manufacturers to the space. When we get everybody in one 
chunk of spectrum that has predictability and adequacy, then 
what we are going to do is we are going to quit spending money 
tying these diverse slices of spectrum together all over the 
map.
    Interoperability, I think this panel is very wise to see 
the problem. Interoperability has yet to be achieved and will 
never be achieved because it requires that systems overlap each 
other in order to have a gateway allow the access to the 
system, which means you can't still overrun your system by 
much. We won't solve interoperability until we have one 
adequate chunk of spectrum.
    To get to the last part of your question about another 
slice of spectrum, all the different spectrums have different 
characteristics in terms of propagation. So for example, some 
spectrums penetrate buildings and some do not.
    When we say the public safety's going to be on the 700 for 
data and 700 for voice, which it is, then we can rely on that 
for certain voice penetration capabilities and certain data 
capabilities. When you put another part of the data spectrum or 
voice spectrum in another frequency band, it may not penetrate 
buildings. When you create unpredictably in our communications 
tools, people quit using them.
    Mr. Rogers. Thank you very much. My time is up.
    Ms. Richardson. Thank you, Mr. Rogers.
    Chief Johnson and Chief Dowd, Admiral Barnett stated that 
there has been great involvement by public safety in this 
process. Do you agree and if not why?
    Chief Johnson. I will start that, Madam Chairwoman. I think 
we have had numerous communications with the FCC, and I think 
Admiral Barnett fairly characterizes his openness and the 
openness of the FCC to talk with us.
    But there is a difference between feeling heard and having 
a dialogue. Public safety, we do not feel that they feel our 
urgency and feel the severity of our opinion as the users of 
this system. I also think that there has been some disconnect 
in terms of the timing.
    The National Broadband Plan came out before we had an in-
depth discussion about the merits of that broadband plan, and 
the discussion about what capacity the system has and what our 
needs are. That was subsequently dealt with in a paper by the 
FCC dealing with what kind of capacity 10 megahertz of spectrum 
would carry.
    So I think it is fair to say that they have been talking 
with us and dialoguing with us. We greatly appreciate that, but 
we do have dysfunction in terms of them seeing our perspective 
and us being brought to a place where we see the wisdom of 
their decision.
    Ms. Richardson. Have you provided that feedback to Mr. 
Schaffer and also to Admiral Barnett?
    Chief Johnson. Yes, we have.
    Ms. Richardson. Okay. What was their response?
    Chief Johnson. Well, I think, you know, on the timing 
issues I think they acknowledge that it was unfortunate that 
there were other factors that drove essentially the release of 
the National Broadband Plan. They were quick to circle back 
with the public safety community and have a dialogue about it. 
But I think they essentially believe it was unfortunate.
    Ms. Richardson. So regarding your specific recommendations 
or things you would like to see, you said other than being 
heard you haven't really seen them being incorporated as of 
yet?
    Chief Johnson. Not as of yet, but they have been very open. 
We continue a dialogue with the FCC, DHS, and the 
administration on what a solution eventually could be. I mean, 
I don't want to oversimplify this.
    But if you look back in history at what public safety was 
willing to do, Madam Chairwoman, public safety was willing to 
take the D Block, allow a cellular provider to use it and 
actually carry cellular traffic on it, but it would be licensed 
to public safety, which meant we controlled the network. So 
when we needed it we got the upgrade.
    It is a small shift in terms of the thinking, but if you 
take the same spectrum and you don't auction it but you give it 
to public safety, we create a public-private partnership with 
the cellular industry or whoever.
    They pay us for access to that network. We use the money to 
build out the network and to operate the network, but we know 
because we have the license we control the joystick. When we 
need it we get it.
    It is a good parallel is the freeway system today. I don't 
own the freeway system. It is commonly used by commercial 
carriers and private motorists. But when my fire apparatus 
pulls onto that freeway and turns on its red lights and siren, 
people pull to the right and stop. In radio parlance that is 
what we are talking about.
    We are talking about everybody can use it if you have an 
agreement to get on it and it creates revenue to build out the 
system. But when public safety keys the mike everyone pulls to 
the right and stops.
    Ms. Richardson. Okay. Other than--I already mentioned that 
I had served on a city council for 6 years--other than Federal 
grants how would you anticipate any available funding in your 
budgets? I am speaking to the two chiefs, to be able to fund an 
interoperable system?
    Chief Dowd. Well, again, you know, I think we have to work 
from the presumption that, you know, these communications 
networks are absolutely necessary in order for us to do our 
job.
    You know, so we look at it from the perspective of, again, 
if you look at the President's memorandum that he recently 
issued about identifying 500 megahertz spectrum, Larry Summers, 
his economic adviser in comments the day that that was 
published, said that the first place that they would want to go 
with the proceeds from the sale of any portion of that 500 
megahertz of spectrum would be to build out public safety's 
network Nation-wide.
    So our argument is that 10 megahertz that we are asking for 
is less than 2 percent of the total 500 that the President says 
needs to be identified for broadband services, yet it would 
double our spectrum.
    Our argument is well, then if they are going to sell that 
why don't we take the best of both worlds? Why don't we 
leverage the sale of that spectrum for the broadband, you know, 
for the broadband build-out for public safety but still 
reallocate the D Block to public safety?
    Ms. Richardson. Right. But my question is do you foresee 
any money in your budget aside from Federal grants that you 
currently receive for this, do you foresee having any money in 
your budget to be able to assist in this process?
    Chief Dowd. Well, sure. Yes. The city is prepared to commit 
those funds because they understand the value of broadband 
services. That is why we have already built a broadband system 
in New York City. The mayor directed that 5 years ago.
    It operates on different spectrum that doesn't give the 
kind of public safety quality coverage in building coverage 
that we need, but the monies are there.
    The other issue is, and we--something that is kind of 
related to this--is there is an unfunded mandate on the part of 
the FCC for everybody below 512 in the spectrum range to narrow 
band their radio systems, which would fall upon us, too.
    We have already estimated that to cost between $100 million 
and $300 million for the city of New York to do that for the 
police radio system. Rather than applying monies to that old 
technology, we would prefer to see the FCC make a change in 
that mandate and allow us to explore, again, the broadband 
technology for mission critical voice capability and ultimately 
put all of our communications capabilities, voice and data, on 
a mission critical level into the broadband services.
    So again, you know, there are some different ways of 
approaching this. You know, in not having to spend monies on 
unfunded mandates that the FCC doesn't seem concerned about 
funding.
    At the same time, if you look at the efficiencies of 
broadband and how we are already using it, the idea of not 
wanting to build it or not trying to push public safety into 
that technology for the future just doesn't make a whole lot of 
sense.
    Ms. Richardson. Okay.
    Mr. Rogers, did you have any further questions?
    Mr. Rogers. Yes, ma'am.
    Chief Dowd, Chief Johnson gave a great example of using the 
public highways and the priority that public safety gets in 
that venue. It is my understanding that public safety has 
priority access to commercial networks. My questions to you are 
can you rely on that access? Can you tell me examples of where 
it has not been a priority?
    Chief Dowd. The simple answer to that is we cannot rely on 
it. You know, you listen to what was said here and it is kind 
of a cart before the horse scenario. Jeff kind of alluded to it 
already. You look at the broadband plan. It came out before the 
FCC's white paper talking about spectrum requirements, you 
know.
    When you look at it and say, you know, commercial networks, 
can you use commercial networks to rely on in emergencies? The 
answer is every experience that we have ever had tells us that 
commercial networks will not be there when we need them in an 
emergency.
    I will give you a couple of quick examples. No. 1, you 
remember Cory Lidle, the New York Yankee who crashed his light 
plane into a building in Manhattan. You know, all of our 
command staff, and we had, I think, close to 650 first 
responders at the scene of that. I got screamed at the next day 
because they say my cell phone, my data, I couldn't--nothing 
worked. I couldn't get any information.
    Again, it is because, you know, the only priority it had is 
what they call next in queue priority or as the Admiral 
referred to it earlier, first in line priority. That simply 
will not work for public safety.
    So that priority is not a legitimate priority. They haven't 
figured it out yet. They have determined that that is the 
solution even though they haven't figured it out. I think it 
was the Chairwoman that pointed that out. You know, they have 
figured out a solution, you know, without knowing whether it 
can work or not. Our experience says that it will not work.
    Another example is if you look at the Times Square bomb 
incident, and had a conversation recently with the commanding 
officer of the bomb squad. That bomb was a mechanical device. 
It was, you know, a switch trip device, but, you know, we know 
from experience in watching what happened in Madrid that 
sometimes these devices are tripped by cellular phone calls. 
The device is set off that way.
    So the scenario there was--and I said to him, ``Well, if 
you had that scenario and you believed the device you were 
looking at was going to be tripped potentially by a cellular 
device, what would be your first action?'' He said, ``We would 
shut down or request the immediate shutdown of the commercial 
networks in the area.''
    Now, if the commercial networks are there to back us up in 
an incident like that when we have to, you know, we have a 
large concentration of first responders and now we have maxed 
out on our 10 megahertz of spectrum, where do we go? We have 
just shut those systems down. So it is just not a workable 
model.
    Mr. Graham. Congressman, could I respond?
    Mr. Rogers. Yes, go ahead.
    Mr. Graham. Because that, while that is--every bit of that 
is true for everything up until today and when we launch LTE 
technologies, none of that is true, virtually none of that is 
true for LTE and beyond. What LTE will let us do, and LTE, make 
no mistake, is the technology going into the 700 megahertz 
space, LTE will allow carriers to manage users on an individual 
basis.
    LTE will allow the commercial providers to prioritize 
emergency responders in such a way that not only does traffic 
move to the side of the road, traffic moves completely off the 
highway well before that fire engine, that police car starts 
going down the highway. We will have that capability. We will 
be able to limit all but public safety and first responders' 
traffic on that network.
    Mr. Rogers. What about the situation where he said a plane 
flew into a building in New York and he had people screaming at 
him the next day? By the way, the problems are here in New 
York. If you came to Alabama, we don't scream at police chiefs.
    [Laughter.]
    Mr. Rogers. Mr. Graham.
    Mr. Graham. Sure. There are two ways to do that. One is at 
the first notice that public safety needs the spectrum we can 
pull the plug on the commercial users for that LTE network, the 
LTE portion of the network. The second way would be to pre-
prioritize those public safety users so that when they cued up 
their mics or they fired up their devices, it would clear 
everybody off.
    It wouldn't be first in line, to the example in the first 
panel. It wouldn't be I am ready to travel first class but 
there are no seats. It would be I am public safety. I pull 
somebody off the plane and now I get that seat.
    Mr. Rogers. Great, thanks.
    Mr. LeGrande, the FCC chairman suggests that ``Auctioning D 
Block will create an environment of interoperability.'' Do you 
agree?
    Mr. LeGrande. No, I don't. I think the FCC's National 
Broadband Plan already creates a plan for interoperability. I 
mean, really, we are not talking about making things more 
interoperable. It is already designed. We have stabilized by 
saying we are going to be on the LTE technology.
    We are doing operational standards. We are doing roaming 
standards between private networks. We are doing roaming 
standards between the commercial networks and the private 
networks that we are talking about.
    In fact, you know, the suggestion that, you know, that 
there is only going to be a private network if you give public 
safety the D Block is simply not true because we are already 
building these networks, even with them having the 10 megahertz 
of spectrum, to be interoperable with the commercial industry.
    So the suggestion that public safety will not have them as 
a partner, they will have them as a partner. Further, the 
suggestion that, you know, we can just move everyone off is, 
you know, that is pretty accurate but you can always on the 
commercial environment move folks off.
    But the question is is the commercial carrier on the case 
of having the D Block will have the authority to move when they 
think it is best to move versus public safety having the 
authority to move people when it is best to move?
    That scenario is best for our country, having public 
safety, the control and the capacity to manage their network 
resources, not the commercial carriers.
    Mr. Rogers. Great, thank you.
    Ms. Richardson. Thank you, Mr. Rogers.
    I just have two last remaining questions. For both chiefs, 
as you noticed I mentioned to the Assistant Secretary Mr. 
Schaffer about being more engaged in this process and how DHS 
has not been as vocal in terms of some of the concerns that 
your agencies have expressed. What would you like to see DHS do 
differently?
    Chief Johnson. Madam Chairwoman, I think a healthy dialogue 
about what interoperability is, why it isn't working, and how 
our money is being spent and what the outcomes are would be a 
healthy place to start because I think the outflow of that 
would be clarity about why the D Block belongs in public 
safety's hands and why we need that much contiguous spectrum.
    I talked to the Secretary before he left and as the chair 
of a State-wide interoperability network I have learned a few 
things about interoperability and how we spend our money.
    First, interoperability is connecting together disparate 
pieces of spectrum on existing systems. You take the State of 
Oregon, for example, there are 49 independently owned, 
operated, and maintained radio networks.
    What we are doing today in Oregon is building a single 
State-wide radio umbrella and people can choose to abandon 
their own, choose to abandon their own and become subscribers. 
What will eventually happen, based on States like Alabama and 
Michigan and Wyoming, is that there will be a mass migration to 
a single system.
    Given adequate spectrum that ends interoperability once and 
for all, that allows you to make investment in redundancy and 
layers and to integrate these local systems. I think DHS 
engaging us in those kinds of discussions will move us toward a 
place where we stop spending money in the name of 
interoperability and start spending money on a common picture 
moving forward.
    That will by its very nature, as was mentioned, by its very 
nature will be interoperability. I think that is the most 
important thing they can do.
    Ms. Richardson. Thank you.
    Chief Dowd, did you have anything you wanted to add?
    Chief Dowd. Well, again, what we want to see happen is 
there be a collaboration between DHS, FCC, and first 
responders. You know, Secretary Schaffer talked about forming a 
task force and, you know, what was a little bit troubling about 
it is he only mentioned Federal entities.
    You know, first response is a local event. First responders 
need to be heavily involved in any process that determines how 
we do our business.
    Just quickly, in response to the response to my comments 
before, every experience any police or fire chief I have ever 
spoken to when they have talked about the use of commercial 
networks for mission critical work or for your 911 system, 
said, when you need them they are not there. They will fail.
    They will fail before our networks do. It is just not a 
workable model. Also, in order to get that priority access you 
have to get on something called the access channel. If you 
can't get in on the access channel, the system does not 
recognize you as prioritized. So again, if the spectrum is on 
our network that recognition is automatic and instantaneous.
    Ms. Richardson. Thank you.
    Mr. LeGrande, have you been involved at all with the 
discussions about this issue from the FCC or DHS perspective?
    Mr. LeGrande. Yes, Madam. I have over the years, back when 
I was with the district and until now, I think it has been 6 
years since we launched----
    Ms. Richardson. But I mean, currently the discussions that 
are being had right now, have you been invited to participate?
    Mr. LeGrande. No, I haven't been invited.
    Ms. Richardson. Okay, would you please submit your interest 
if you do have an interest to Assistant Secretary Schaffer and 
also to Admiral Barnett and do a copy to this committee?
    Mr. LeGrande. Yes, ma'am.
    Ms. Richardson. Okay. Thank you.
    All right, my last question then would also be to the two 
chiefs. Would you provide to us, preferably by the end of the 
week--I know that is asking a lot in Government, but if you 
could do your best--if you could provide to this committee in 
writing specifically what you would like to see DHS do further?
    It is answering the question that I just asked you as well 
as the FCC. Then that way I will forward it from this committee 
to them, asking them to work with you to address those issues. 
So I am asking you to help me to help you, and I would be happy 
to do it.
    Feel free in the letter to say that it is under my 
direction. That way you don't have to look like the bad guys. I 
do.
    Chief Johnson. Thank you.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chief Dowd. Thank you, Madam Chairwoman. Madam Chairwoman, 
if I could real quickly, respectfully, I would like to request 
that two documents be entered in the record, the New York City 
white paper on public safety spectrum requirement that was done 
by the City of New York and the Public Safety's Alliance review 
of the FCC's white paper on spectrum requirements.
    Ms. Richardson. Without objection.*
---------------------------------------------------------------------------
    * The information was retained in committee files.
---------------------------------------------------------------------------
    Chief Dowd. Thank you.
    Ms. Richardson. Mr. Rogers, any further questions?
    Mr. Rogers. No, ma'am.
    Ms. Richardson. Okay. I thank all the witnesses for your 
valuable testimony and the Members for their questions. The 
Members of the subcommittee may have additional questions for 
the witnesses, and we will ask you to respond in an expeditious 
way in writing, preferably within 2 weeks unless I otherwise 
specified.
    Hearing no further business, the hearing is adjourned. 
Thank you very much.
    [Whereupon, at 11:53 a.m., the subcommittee was adjourned.]


                          A P P E N D I X    I

                              ----------                              

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                         A P P E N D I X    I I

                              ----------                              

  Questions From Chairman Bennie G. Thompson of Mississippi for James 
                           Arden Barnett, Jr.
    Question 1. What discussions, if any, did the FCC have regarding 
the possibility of levying a fee within the telecommunications industry 
to assist in the funding of a Nation-wide, public safety broadband 
network? What is the status of this type of funding proposal?
    Answer. The National Broadband Plan (NBP) recommends public funding 
for both capital expenses for construction of the Nation-wide 
interoperable public safety broadband network and on-going expenses for 
the operation, maintenance, and evolution of such a network. With 
regard to those operational expenses, however, public funding will 
likely not be enough. Thus, the NBP recommends that Congress consider 
imposing a nominal public safety fee on all U.S. broadband users. Such 
a fee could be assessed on the communications industry. Congress would 
have to authorize the creation of such a fee and its administration. 
The NBP recommends that Congress should explore creating such a funding 
mechanism in fiscal year 2011, but no later than fiscal year 2012. The 
NBP leaves the source of funding network construction and operation to 
the discretion of Congress, but the suggestion of funding on-going 
expenses through this mechanism is a still valid and active proposal. 
The complete NBP proposal is available at: http://www.broadband.gov/
plan/16-public-safety/#s16-1.
    Question 2. Under the National Broadband Plan, how would commercial 
providers prioritize spectrum use among fire and police in one or 
multiple jurisdictions, or among State and Federal officials?
    Answer. Under the National Broadband Plan, commercial providers 
would have no say in how public safety agencies use and prioritize 
among themselves when they are operating on the public safety broadband 
spectrum that constitutes the core of the network. A fundamental 
principle of the NBP proposal is that public safety would control its 
own core network, preserving as many options to itself as reasonably 
possible for determining how the public safety spectrum would be used. 
With regard to priority access and roaming by public safety on 
commercial spectrum, the NBP recommends that the FCC should conduct a 
rulemaking that would require commercial providers to allow public 
safety users priority access to commercial broadband networks in the 
700 MHz band. The NBP also anticipates that both commercial and public 
safety networks in the 700 MHz band would use LTE technology, which has 
15 levels of prioritization that will facilitate such priority access 
arrangements. Addressing how prioritization will function for 
commercial networks would be one of the matters addressed in the 
recommended rulemaking.
    Question 3. Under the National Broadband Plan, what contingency 
plans are in place to provide continued operation and priority access 
to public safety if commercial networks are down or unable to provide 
priority access because they are overloaded?
    Answer. First, under the NBP, public safety will always have its 
own network on which to rely, and public safety will be able to govern 
and control usage and priority on this dedicated network. Public safety 
would only roam onto, and obtain priority access on, commercial 
broadband networks when the public safety network is at capacity or 
otherwise unavailable. Second, the NBP contemplates that, in those 
circumstances, public safety could have access to multiple commercial 
networks for roaming and priority access services. Being able to access 
multiple commercial networks in this manner provides greater 
reliability and redundancy to public safety than relying solely on a 
single commercial network, and increases the options for public safety 
in the event that some commercial facilities become disabled or 
congested. In short, under the NBP's analysis, the most resilient and 
reliable plan is to have a high-capacity, hardened public safety 
network that is backed up by multiple independent commercial networks, 
if and when they are needed.
    Question 4. How does the National Broadband Plan ensure we have a 
reliable and interoperable network for rural communities? Conversely, 
how would reallocating the D Block to public safety affect build-out in 
rural areas?
    Answer. A critical focus of the NBP is to ensure that rural 
communities will have access to a Nation-wide public safety broadband 
network. To ensure this, the NBP recommendations rely on two major 
tools. First, the NBP recommends that there be sufficient funding, both 
for capital and on-going expenses, to ensure coverage and service to 99 
percent of the Nation's population. Second, by recommending the auction 
of the D Block, the NBP establishes a framework for leveraging 
commercial economies of scale and reducing equipment costs for the 
benefit of public safety, thus making public safety network deployment 
and operation in rural areas more affordable. Specifically, making the 
D Block available for commercial use creates incentives for stimulate 
development of consumer-priced devices and equipment, and provides 
multiple potential partners for public safety network deployment and 
operation. In this respect, the NBP seeks to bring greater economic 
efficiencies to the public safety marketplace that would enable lower 
cost devices for public safety and a more cost-effective Nation-wide 
network deployment.
    Reallocating the D Block to public safety has the potential to 
negatively impact rural build-out by increasing its cost. If public 
safety is unable to leverage the economies of scale in the consumer 
electronic marketplace, the cost of the public safety network could 
potentially rise from approximately $6.5 billion for construction costs 
and approximately $8-10 billion in operating costs to an estimated 
combined total of $35-$48 billion over 10 years.
    Further, the D Block and the public safety broadband spectrum make 
up what is called ``Band 14'' in the 700MHz band for equipment 
development purposes. Without a commercial carrier in the D Block 
portion of Band 14, the pool of potential users of Band 14 equipment is 
likely to be reduced dramatically, providing less incentive for 
equipment manufacturers to develop or upgrade products. Without the 
ability to capitalize on consumer electronic market research and 
development, and choose from a broad array of commercial equipment 
manufacturers, public safety users risk being saddled with 
disproportionately high costs for communications equipment and devices 
that are rapidly outdated and not readily replaceable. These high costs 
could have a particularly harmful impact on the feasibility and 
affordability of extending the network to rural areas.
    In short, reallocating the D Block may threaten to put the public 
safety broadband network out of reach for many communities, including 
those in rural areas. Delaying deployment may also damage any ability 
to leverage commercial deployments now or in the future, and makes it 
more likely that Nation-wide interoperability will not be achieved in 
any reasonable amount of time.
 Question From Honorable Dina Titus of Nevada for James Arden Barnett, 
                                  Jr.
    Question. As you may know, I represent Southern Nevada, a popular 
business and vacation destination for millions from around the world 
and home to hundreds of thousands of hotel rooms. On any given weekend, 
we have thousands of tourists who most likely know next to nothing 
about local emergency procedures. Because of this unique dynamic, it is 
imperative that the private sector institutions, like hotels and other 
attractions, work seamlessly with public safety officials. It is vital 
that public safety officials are able to send and receive information 
from the private sector, especially during an emergency.
    As this discussion and decision-making process continues, I hope 
that a solution can be found that not only leverages the lower-cost 
devices and expertise of the private sector, but also provides public 
safety agencies and officials the ability to improve and increase their 
communications capabilities.
    Mr. Barnett, as the Chief of the Public Safety and Homeland 
Security Bureau of the FCC, can you please outline what considerations 
were made for the types of public-private partnerships that exist in 
Las Vegas during the development of the National Broadband Plan? Did 
you consult public safety officials from areas where these partnerships 
are critical? As currently written, do you estimate the NBP will have 
any type of impact on these types of public-private partnerships?
    Answer. Access to public safety spectrum in the 700 MHz band is 
governed by Section 337 of the Communications Act, as amended, 47 
U.S.C.  337. As part of a pending rulemaking proceeding and during 
development of the NBP, the FCC has been carefully evaluating how to 
best enable public-private partnerships that will foster the rapid and 
cost-effective deployment of the public safety broadband network. One 
of the open issues that the FCC continues to evaluate is whether the 
FCC has statutory authority under Section 337 to permit non-public 
safety users to utilize public safety spectrum in the 700 MHz band. In 
considering this issue, the FCC is also evaluating how to ensure that 
if such users have access to the network, public safety will retain 
primary access to the spectrum when it needs it most. Accordingly, 
while we recognize that such partnerships can play a critical role 
during emergencies it is also necessary to create a regime that is 
balanced and ensures that public safety has access to the network 
capacity that it needs when it needs it.
 Questions From Chairman Bennie G. Thompson of Mississippi for Gregory 
                                Schaffer
    Question 1. Please discuss how the Department of Homeland Security 
(DHS) was included in the FCC's efforts to develop the National 
Broadband Plan's D Block auction recommendation?
    Answer. Consistent with the Federal Communications Commission's 
(FCC) role as an independent regulatory agency, the FCC did not share 
specifics with the Department of Homeland Security (DHS) or the 
Emergency Communications Preparedness Center (ECPC) regarding its final 
recommendations in advance of the public release of the National 
Broadband Plan, including any final D Block decisions.
    As the FCC's Public Safety and Homeland Security Bureau developed 
the Public Safety elements of the Plan, the Bureau provided the Office 
of Emergency Communications (OEC) with a number of briefings on options 
under consideration, especially those concerning the proposed Nation-
wide public safety broadband network. OEC, in turn, provided general 
comments to the Bureau, particularly on outreach to State and local 
emergency responders. Prior to the FCC's release of its Plan, OEC 
facilitated a meeting of the SAFECOM Executive Committee, during which 
the Bureau briefed SAFECOM members on likely recommendations in the 
Plan. DHS also participated in several public workshops sponsored by 
the FCC to gather input for the development of its Plan. Additionally, 
the FCC provided briefings to the ECPC on its development of the 
National Broadband Plan.
    Question 2. The FCC's National Broadband Plan does not mention 
DHS's National Emergency Communications Plan that Congress required DHS 
to develop and update. Were efforts taken to align the National 
Broadband Plan (NBP) with the National Emergency Communications Plan 
(NECP)?
    Answer. The Department of Homeland Security (DHS) released the 
National Emergency Communications Plan (NECP) in July 2008 to drive 
advancements in operability, interoperability, and continuity of 
communications at all levels of government. The NECP primarily focused 
on traditional emergency communications, such as land mobile radio 
technologies, while also stressing the importance of planning for new, 
emerging technologies such as broadband.
    The Federal Communications Commission's (FCC) National Broadband 
Plan (NBP) references the NECP and DHS's efforts to implement the goals 
of the NECP in Chapter 16, ``Public Safety'' (p. 328). That section of 
the NBP also identifies the 700 MHz spectrum band as ideal for 
deploying a Nation-wide wireless broadband network for use by first 
responders. Since release of the NBP, OEC has been working in concert 
with Federal, State, local, territorial, and Tribal public safety 
representatives, including the FCC, to update the NECP so that it 
accounts for the planned deployment of a Nation-wide public safety 
network. DHS, via the NECP, also addresses key issues that impact the 
public safety community regardless of the use of current (land mobile 
radio) or emerging (broadband/4G) technologies, such as governance, 
planning and partnerships, training, requirements, standards, and 
research and development.
    Question 3. Please describe in detail the questions and issues that 
need to be resolved before a final decision on the D Block is made, 
particularly the technical and legal aspects of the framework for 
priority access and roaming.
    Answer. The administration and the Department of Homeland Security 
(DHS) support public safety's need for broadband communications that 
meet their mission requirements. As DHS evaluates any potential plan to 
develop and deploy a Nation-wide public safety broadband network, it is 
focusing on the following technical and legal aspects:
  <bullet> First and foremost, interoperability must be built into any 
        broadband network architecture from the outset.
    <bullet> We must use lessons learned from the development of land 
            mobile radio (LMR) technologies and avoid developing 
            systems that are not built to open standards. Unless 
            industry uses open standards emergency response 
            communication equipment will be unable to interoperate 
            without substantial investment in expensive add-on 
            components.
  <bullet> Second, network coverage in both urban and rural areas is 
        essential.
    <bullet> Emergency responders across the entire range of response 
            official--from metropolitan police departments to rural 
            county volunteer fire departments--must benefit from 
            broadband communications capabilities to meet their mission 
            requirements.
  <bullet> Third, the solution must allow public safety devices to 
        heavily leverage commercial technology.
    <bullet> If public safety and commercial providers can leverage 
            common infrastructure, chipsets, and base station 
            technologies which also meet public safety requirements, 
            both sides will benefit.
  <bullet> Fourth, any solution must provide a path for the network to 
        evolve and grow, progressively adding greater capability and 
        providing better mission support.
    <bullet> Technical specifications on how standards, such as Long 
            Term Evolution, should be implemented.
    <bullet> An interface that will allow for roaming among early 
            adopters (waiver cities) and eventually across the Nation-
            wide public safety broadband network.
    <bullet> A test and evaluation process to ensure that emerging 
            technology meets specifications to enable interoperability 
            across systems.
    Our efforts are focused on ensuring that public safety has the 
capabilities to communicate as needed, on demand, and as authorized at 
all levels of government and across all disciplines. Ultimately, the 
development of a Nation-wide public safety broadband network must meet 
the needs of public safety. Under the Federal Communications 
Commission's (FCC) proposal, public safety communications would 
transition into a commercial environment characterized by increased 
infrastructure to maximize spectrum reuse and the utilization of 
commercial devices and base station technology to achieve significant 
cost and capability advantages for public safety users and the Nation. 
We believe that the FCC's proposal has merit, with a number of 
significant caveats. Any final decisions about the public safety 
broadband network must address the following issues:
  <bullet> First, the FCC's proposal relies on development of a new 
        generation of technical capabilities and additional legal 
        authorities, which are intended to allow public safety to roam 
        onto commercial spectrum with priority access in emergency 
        events. Both the technical and legal frameworks for this type 
        of plan must be evaluated, and capacity and capability outcomes 
        understood, before any decision can be made regarding the 
        spectrum requirements for public safety.
  <bullet> Second, the FCC's plan will necessitate sufficient funding 
        to build out the infrastructure required for the network. 
        Effective network operations require that sufficient cell sites 
        and base stations be built out and that the network be hardened 
        as appropriate. One significant advantage of the FCC's plan is 
        that network costs are expected to be significantly less than 
        other alternatives, and costs are of course an important factor 
        for public safety.
  <bullet> Third, the FCC expects that commercial networks can 
        ultimately be enabled to handle not only mission-enhancing 
        public safety data communications traffic but eventually, 
        mission-critical public safety voice traffic as well. While the 
        use of Long Term Evolution wireless broadband technology as a 
        replacement for existing public safety voice-traffic systems is 
        years away, it is essential that significant efforts be 
        undertaken now to solve the following critical technical 
        challenges associated with public safety use of commercial 
        networks:
    <bullet> The networks and associated equipment must be able to 
            operate in a one-to-many mode, as LMR systems do today, in 
            addition to the one-to-one mode of typical commercial 
            cellular phone systems;
    <bullet> The networks and associated equipment must be able to 
            operate peer-to-peer (or handset-to-handset) in the event 
            of network outages;
    <bullet> The networks must be able to provide clear understandable 
            voice communications in high-noise environments like 
            burning buildings, and with minimal voice delay; and
    <bullet> The networks must be able to penetrate to and from the 
            interior of large buildings without significant degradation 
            of capability.
    Although we are focused on the above-referenced questions at this 
time, we also recognize that additional issues may be identified as DHS 
works along with other members of the administration to research the 
particulars of the FCC's plans and as more details about the 
capabilities of new 4th generation communications technologies become 
available.
    Question 4. Do you believe the FCC's Emergency Response 
Interoperability Center (ERIC) should be located within the Department 
of Homeland Security? If not, what functions do you think DHS should 
perform in relation to the ERIC?
    Answer. Given the regulatory and technical responsibilities of the 
Emergency Response Interoperability Center (ERIC) concerning the 
operation of the Nation-wide public safety broadband network, the ERIC 
is appropriately located within the Federal Communications Commission 
(FCC). The Department of Homeland Security (DHS) will have a leadership 
position within ERIC by providing a detailee to serve as Deputy 
Director. At the same time, DHS and other Federal entities also have 
statutory responsibilities regarding emergency communications. As a 
result, DHS and other appropriate Departments are working to develop a 
Memorandum of Understanding (MOU) to form a partnership, in order to 
provide consistent and integrated Federal support for the Nation-wide 
public safety broadband network and to synchronize their on-going 
activities, including their coordination and consultation with State, 
local, and Tribal public safety organizations with ERIC functions. This 
partnership will leverage the unique capabilities of each Department 
with respect to non-regulatory matters, and enable each party to 
execute its preexisting statutory duties in a coordinated manner.
    Although the governing MOU is still in progress, the following 
functions are representative of the partnership's proposed activities:
  <bullet> Establish policies and strategic plans, to coordinate the 
        roll-out of the proposed Nation-wide public safety broadband 
        network;
  <bullet> Ensure the availability of technical assistance to eligible 
        parties at all levels of government (including quasi-
        governmental responders) to facilitate the rapid development, 
        deployment, and adoption of the network and its integration 
        into day-to-day operations;
  <bullet> Develop coordinated guidance, applicable to all Federal 
        programs that provide grants or other financial assistance for 
        activities in connection with the network, that encourages 
        planning and training for broadband capabilities and supports 
        the adoption of the network at the most rapid possible rate;
  <bullet> Coordinate Federal activities in support of development, 
        testing, and evaluation for technologies related to the 
        network;
  <bullet> Coordinate administration positions on proposed FCC actions, 
        notices, etc. affecting public safety communications in 
        connection with the operations of the network for submission to 
        the National Telecommunications and Information Administration;
  <bullet> Develop and implement procedures, where possible, for the 
        resolution of disputes arising among or between network 
        operators, users, and other stakeholders, including informal 
        procedures that can seek to resolve those disputes prior to 
        formal ERIC regulatory and enforcement activities; and
  <bullet> Collaborate with the ERIC to ensure that all ERIC actions 
        are successfully integrated with relevant planning processes 
        and governance structures and to facilitate the effective 
        deployment and adoption of the proposed network.
   Question From Honorable Dina Titus of Nevada for Gregory Schaffer
    Question. As you may know, I represent Southern Nevada, a popular 
business and vacation destination for millions from around the world 
and home to hundreds of thousands of hotel rooms. On any given weekend, 
we have thousands of tourists who most likely know next to nothing 
about local emergency procedures. Because of this unique dynamic, it is 
imperative that the private sector institutions, like hotels and other 
attractions, work seamlessly with public safety officials. It is vital 
that public safety officials are able to send and receive information 
from the private sector, especially during an emergency.
    As this discussion and decision-making process continues, I hope 
that a solution can be found that not only leverages the lower-cost 
devices and expertise of the private sector, but also provides public 
safety agencies and officials the ability to improve and increase their 
communications capabilities.
    I want to ask you to share the Department's perspective on this 
issue of public-private sector interoperability. When developing DHS's 
position on the NBP, do you consider public-private partnerships? Does 
DHS believe that the NBP can be used to improve and expand these 
partnerships? How so? What steps is DHS taking to ensure that these 
recommendations are implemented effectively?
    Answer. The Department of Homeland Security (DHS) strongly 
encourages public/private partnerships and values the expertise that 
the private sector is able to provide to the public safety community. 
DHS supports the vision of a National public safety broadband network, 
which leverages commercial technologies and applications, to meet 
public safety and emergency response requirements. By design, the 
adoption by the public safety community of the commercially-based long-
term evolution (LTE) standard as the air interface for the network, and 
the Federal Communication Commission's (FCC) adoption of this 
recommendation in its National Broadband Plan, opens up new 
opportunities for partnerships between first responders and the private 
sector. DHS is continuing to collaborate on further consideration and 
implementation of these recommendations with the FCC and other Federal 
agency members of the Emergency Communications Preparedness Center 
(ECPC), and will include recommendations for effective implementation 
of partnership opportunities in its updated National Emergency 
Communications Plan (NECP).
    The planned deployment of new fourth generation, or 4G, mobile 
technologies by many commercial carriers over the next several years 
presents a historic window of opportunity to secure a range of high-
speed, cutting-edge, inherently interoperable capabilities for our 
Nation's public safety and emergency response community. These new 
technologies can be leveraged to augment the existing land mobile radio 
(LMR) solutions that the public safety community currently uses to 
perform its vital mission: Delivering a robust, operable, and 
interoperable Nation-wide public safety network. This improved network 
would support rural jurisdictions and urban areas alike, ensuring that 
all emergency responders have access to the new capabilities. If 
employed effectively, it will facilitate the development of new 
technologies tailored to public safety.
 Questions From Chairman Bennie G. Thompson of Mississippi for Robert 
                              LeGrande, II
    Question 1. How would reallocating the D Block to public safety 
ensure the build out of a Nation-wide, interoperable emergency 
communications network in our rural communities?
    Answer. The FCC's plan to fund network build out in all areas, 
combined with the reallocation of the D Block will ``ensure'' National 
network build out. The plan directs a local government-driven approach 
and addresses the key problem with universal build-out; funding. 
Further to the plan, I suggest a shared D Block spectrum lease option 
(page 6) that will allow local jurisdictions to share spectrum and 
thereby by address the lack of commercial broadband availability in 
rural areas. Some may suggest that this recommendation supports a 
regional auction approach; however, we tried a one-size-fits-all 
auction option for public safety in 2008 and it did not work. We should 
provide the State and local governments with the flexibility to do what 
is in their best interest. This approach will satisfy the rural and 
National carriers as they may gain access to the D Block spectrum in 
some areas without an auction cost. Some may also suggest that this 
recommendation is too complicated for many rural governments. In my 
opinion, any solution we choose will be complicated; which is why I 
recommend leveraging the National Network Build Process on pages 7 and 
8. This proactive process allows the Federal Government and PS 
organizations to work with State and local governments throughout the 
network development lifecycle and will promote efficient network 
designs and sound, sustainable business solutions.
    Question 2. What are public safety's spectrum needs for 
catastrophic events versus other less severe disasters and normal 
operations?
    Answer. The FCC produced a network capacity document that says 
10MHz of 700MHz spectrum is enough for all events, while New York City 
and the District of Columbia produced documents that say we will need 
at least 20MHz. The fair answer to this question is that no one knows 
with absolute certainty . . . Every catastrophic event is different, as 
is less severe disasters and normal operations. In one case you may 
need the Federal Department of Transportation, the CIA, and State and 
local first responders and in another your may need regional and 
National responders. Further complicating this issue is the exponential 
increase in wireless broadband solutions and devices. 5 years ago no 
one knew what an IPhone or Droid PDAs were. Now they dominate the 
market and strain our existing commercial networks. The only thing we 
know for certain is that 5 years from now, after many commercial and PS 
LTE networks are built, there will be newer and more innovative 
solutions and devices all requiring increased bandwidth and it is for 
this reason that we must provide PS the D Block spectrum to ensure we 
have enough spectrum to meet their communications needs today and 
tomorrow.
    Question 3. Some who support the auction of the D Block suggest 
that public safety uses spectrum inefficiently and does not understand 
the full capabilities of broadband. What insight can you provide on 
these claims that public safety utilizes broadband inefficiently and 
does not understand the full capabilities of broadband?
    Answer. In the past, spectrum was given to PS in non-contiguous 
chunks and this has resulted in inefficient network designs. PS has 
made many steps forward to more efficient spectrum use and network 
designs. Neither industry nor the FCC promoted the first PS wireless 
broadband network leveraging commercial technology 6 years ago. This 
was accomplished by the District of Columbia Government. PS continues 
to promote efficient spectrum use as evidenced by the New York State 
Association of Counties model outlined in page 10 of this document. 
Here 57 counties in the State of New York have agreed to the same 
spectrally efficient technology (LTE), to leverage the same BB radio 
frequency (700MHz), and to a comprehensive State-wide network design 
that saves money while ensuring local control. These efforts, along 
with many other PS 700MHz broadband efforts in America are evidence of 
PS' willingness and determination to move away from inefficient 
spectrum use and thereby fully leverage the capabilities of broadband 
wireless communications.
 Attachment A.--Recommended Public Safety National Broadband Approach 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  Questions From Chairman Bennie G. Thompson of Mississippi for Eric 
                                 Graham
    Question 1. Do you believe the National Broadband Plan's 
recommendation to auction the D Block would ensure the build out of a 
Nation-wide, interoperable emergency communications network in rural 
communities?
    Answer. While an auction of the D Block facilitates the build out 
of a Nation-wide, interoperable emergency communications network in 
rural communities by providing immediate funding, the actualization of 
this network is also dependent on mandating interoperability throughout 
the 700 MHz spectrum.
    As discussed in the written testimony, true interoperability--not 
only interoperability amongst the different public safety entities 
throughout the country but also with all commercial 700 MHz networks 
operating on the same Long Term Evolution (LTE) technology--is required 
to have Nation-wide service. Partnership with commercial providers is 
necessary to build out the public safety network in an economical way. 
This partnership is only possible in areas where commercial providers 
are building out their own 4G LTE 700 MHz networks.
    The current band classes, as established by the 3rd Generation 
Partnership Project (3GPP), create spectral islands through different 
band classes for the D Block and the existing Public Safety Spectrum 
(Band Class 14), the Upper C Block (Band Class 13), the Lower A, B, and 
C Blocks (Band Class 12), and the Lower B and C Blocks (Band Class 17). 
Under this band plan, devices used on the public safety network would 
only work on networks that are technologically compatible with Band 
Class 14.
    Rural and regional wireless providers hold a significant amount of 
Lower A Block 700 MHz spectrum which will operate on Band Class 12. 
These providers are not only more likely to operate in rural 
communities already, but they also must meet geographic build out 
requirements which ensure that coverage with these licenses will be 
broad-based and not just confined to cities and towns. Geographic build 
out requirements ensure that networks are deployed in rural 
communities, as opposed to population-based build out requirements that 
entice a license holder to build out first to the highest population 
urban areas and expand service to rural areas subsequently, if at all. 
This build out requirement makes Lower A Block licensees ideal partners 
for constructing the public safety network in rural areas.
    If interoperability is not required, public safety users will not 
have the ability to partner with, or even roam on, rural and regional 
holders of Lower A Block spectrum like Cellular South. In the event of 
a disaster such as Hurricane Katrina, public safety responders will be 
required to roam onto additional spectrum held by commercial providers. 
For the additional capacity, roaming onto spectrum held by commercial 
providers will provide not only 10 MHz of additional capacity but allow 
access to up to 70 MHz of 700 MHz broadband spectrum. Under the current 
band plan, first responders would be technically barred from roaming 
onto these networks in places operating on differing band classes. This 
means that even in areas where a 700 MHz LTE network is operational, 
public safety network users would be unable to roam onto the commercial 
700 MHz network for additional capacity or if the public safety network 
goes down.
    In order to ensure the build out of a Nation-wide, interoperable 
public safety network in rural communities, full interoperability 
throughout the 700 MHz broadband spectrum must be mandated in addition 
to auctioning the D Block to provide adequate revenue to build the 
network in all areas of the Nation.
    Question 2. How would rural America be affected if Congress 
reallocates the D Block to public safety?
    Answer. If Congress reallocates the D Block to public safety, it is 
unlikely that the public safety network will be built out and 
operational in rural America in the near future, if ever. Reallocating 
the D Block to public safety will immediately eliminate an estimated 
$2-$3 billion--possibly more based on Auction No. 73 spectrum 
valuations--that could be used to build out the public safety network, 
and it will do so without creating an appropriate alternative funding 
mechanism to ensure that public safety can deploy a network throughout 
the Nation in a timely manner.
    Question 3. If the D Block is reallocated to public safety, do you 
believe sufficient revenue for network build out and operation could be 
obtained by the leasing of spectrum to commercial providers, 
particularly in rural areas of the country?
    Answer. Any uncertainty will lead to lower revenue.
    Due to the significant capital investment necessary to build, 
maintain, and operate wireless networks, regulatory and operational 
certainty are crucial before wireless providers are willing to invest 
in next-generation networks. Spectrum auctions provide the greatest 
certainty for licensees because bidders know the terms of the license 
in advance of the auction, including terms for renewal. Some have 
speculated that the D Block auction failed in Auction No. 73 due to the 
uncertainty of the terms surrounding that spectrum. Although Cellular 
South believes that the geographic size of the license was the greatest 
factor leading to the D Block's failure to reach its reserve price, 
there is no doubt that the uncertainty surrounding the terms of that 
license was a factor as well.
    If the D Block were reallocated and then leased for commercial use, 
there would still be tremendous uncertainty surrounding that spectrum. 
The Commission or Congress would be forced to set forth uniform lease 
terms, or risk a patchwork of lease terms that vary from jurisdiction 
to jurisdiction. Renewal terms would require a high level of certainty, 
or lessees would not make the capital investments necessary to build 
and maintain a high-quality network. The incentive to invest would 
decrease over time as the lease term expires. Additionally, it would be 
very unlikely that a service provider would build new towers--thus 
increasing coverage--if the carrier risked losing its lease at the end 
of a term. These problems are avoided when spectrum is licensed through 
the auction process with build-out based renewal terms that are not 
subject to future increases in lease prices.
    Absent interoperability throughout the 700 MHz spectrum, rural and 
regional providers are unlikely to lease the D Block spectrum for two 
reasons. First, many rural and regional providers made significant 
investments in 700 MHz spectrum and already have access to this 
spectrum. Second, the commercial equipment in the 700 MHz band will not 
be able to operate on the D Block spectrum. Therefore, although leasing 
spectrum from a reallocated D Block may yield funding for the public 
safety networks in urban areas, where greater population densities lead 
to increased spectral demand, it is unlikely this plan would secure 
appropriate revenue amounts in a realistic timeframe to build and 
operate a public safety network in rural areas. Further, as with 
commercial networks, public safety networks are more likely to 
experience greater spectral demands in urban areas, meaning that the 
demand for leased spectrum would exist primarily in areas where public 
safety networks need additional capacity most and the spectrum 
available for lease to commercial providers would exist in areas 
without such demand for either public safety or commercial carriers. 
This is not the solution to provide funding to ensure that first 
responders have the network they need.
    In contrast, auctioning the D Block could introduce additional 
commercial competitors into the 700 MHz space, while providing 
immediate funding for the public safety network in urban and rural 
areas alike.
    In either case, it is imperative that Congress mandate 
interoperability throughout the 700 MHz broadband spectrum to ensure 
that all wireless users who access any portion of paired 700 MHz 
spectrum will have the capability to access all compatible networks 
operating on paired 700 MHz spectrum. This would further increase the 
value of the D Block spectrum, whether at auction or through a spectrum 
lease, increase economies of scale for mobile broadband public safety 
devices, and would allow the greatest possible flexibility for all 
wireless users.

                                 <all>

</pre></body></html>
